App. 1
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

ERIC S. CLARK,
Plaintiff - Appellant,
No. 19-3237
v.
(D.C. No. 2:17-CV-02002-HLT)
CITY OF WILLIAMSBURG,
(D. Kan.)
KANSAS,
Defendant - Appellee.

ORDER AND JUDGMENT*
(Filed Jan. 14, 2021)
Before TYMKOVICH, Chief Judge, BRISCOE, and
BACHARACH, Circuit Judges.
Plaintiff Eric Clark, a resident of the City of Wil­
liamsburg, Kansas (the City), filed this action claiming
that the City’s attempted enforcement of its sign ordi­
nance against him violated his First Amendment
rights, and that the City’s code enforcement officer vi­
olated his Fourth Amendment rights by walking onto
* This order and judgment is not binding precedent, except
under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value con­
sistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

App. 2
his property and attempting to speak with him. The
district court granted partial summary judgment in
favor of Clark on his First Amendment claim, but
granted summary judgment in favor of the City on
Clark’s Fourth Amendment claim. The First Amend­
ment claim proceeded to a jury trial on the issue of
damages, where the jury awarded Clark one dollar
in nominal damages. Clark now appeals the district
court’s summary judgment rulings in favor of the City
on his First and Fourth Amendment claims. Exercising
jurisdiction pursuant to 28 U.S.C. § 1291, we affirm the
judgment of the district court.
I
Clark lives in a house located in a sparsely popu­
lated area within the northern limits of the City. The
front of the house faces the east. A gravel driveway
runs from the back of the house, where there is a small
parking lot type of area, around the south of the house
and eastward to a road (K-273 Highway, also known as
Dane Avenue) that runs north and south along the
eastern boundary of Clark’s property.
Clark purchased the property on July 29, 2003. It
is undisputed that in the early 1970s the prior owners
deeded a total of .49 acres of the property, located on
the eastern edge directly adjacent to the existing pub­
lic road, to the State Highway Commission of Kansas
for highway purposes. It is disputed whether the City
now has rights in that .49 acres of the property; the
City maintains that it does, while Clark denies this.

App. 3
On February 13, 2015, Tony De La Torre, a code
enforcement officer employed part-time by the City,
conducted an inspection of what he believed to be the
City’s right-of-way in front of Clark’s residence. Ten
days later, on February 23, 2015, De La Torre sent
Clark a written “NOTICE OF VIOLATION” (hereinaf­
ter Notice of Violation). ROA at 581. The Notice of Vio­
lation stated that De La Torre, during his inspection,
“found that there [we] re three large barrels, several
signs, and other affixed objects . . . located with [sic]
the City’s eighty foot easement” that “w[ould] need to
be removed.” Id. The Notice of Violation further stated
that “[u]nder the City[‘ s] . . . Ordinance, political signs
shall not be placed on or otherwise affixed to any public
building or sign, right of way, sidewalks, utility pole,
street lamp post, tree, or other vegetative matter, Pub­
lic Park, or other public property.” Id. The Notice of Vi­
olation stated that De La Torre would “be conducting a
re-inspection of the right of way on March 9,2015,” and
it advised that “[i]f the violations [we] re not corrected
a citation m[ight] be issued and objects removed from
the City easement.” Id. Lastly, the Notice of Violation
stated that if Clark “ha[d] any questions” or believed
he “received th[e] letter in error,” he should “contact
City Hall immediately by phone ... or actions w[ould]
continue toward resolution.” Id.
On February 25, 2015, Clark sent a letter to De La
Torre acknowledging the Notice ofViolation. Id. at 583.
The letter noted, in part, that the Notice ofViolation
“failed to identify the specific lawful authority for al­
leging any violation.” Id. The letter further stated that,

App. 4
“[t]o [Clark’s] knowledge, [he was] not in violation,”
and it in turn asked De La Torre to “please provide
the specific law/code/ordinance/etc” that he “believe [d]
[wa]s being violated.” Id. The letter also stated that if
De La Torre was “unaware of liability under 42 U.S.C.
1983, and costs (§ 1988),” he should “become familiar
with [his] exposure to personal liability as well as lia­
bility to the City.” Id.
On March 16, 2015, De La Torre returned to
Clark’s property with the intent of speaking to Clark
about, and hopefully resolving, the alleged violations.
Id. at 464, 'll 26; Id. at 530 (De La Torre deposition). De
La Torre parked his vehicle on the City’s right-of-way
near the road and began walking up the gravel drive­
way towards Clark’s house. Id. at 464, ^ 26. On that
day, there were no “No Trespass” signs posted on the
property anywhere between the road and the house. Id.
at 462, % 15. There was no sidewalk or worn path lead­
ing to the front porch and door of the house. The front
porch was covered and Clark had placed a tarp over
the front porch to partially enclose it. There was a chair
and an old mattress near the entrance to the front
porch, and a visitor would have had to squeeze by the
chair and the mattress to enter the front porch area.
According to De La Torre, “[i]t was very evident that
there was no way that [he] could get to the front porch
because of the objects that were on the porch.” Id. at
530. Because of that, and because he also “heard some­
one in the back” of Clark’s house, he proceeded to walk
up the gravel driveway and toward the back of the

App. 5
house, rather than attempting to approach the front
porch and front door of the house. Id.
At the back of Clark’s house, Clark had hung
sheets on ropes to form a ten-foot square canopy with
fabric walls that enclosed the back door to the house.
De La Torre walked to within ten feet or less of this
enclosure and called out for Clark. Clark exited the
rear door of his house, walked through and exited the
square fabric canopy, and began yelling at De La Torre
to get off of his property.1 According to De La Torre,
Clark then turned and went inside his house. De La
Torre returned to his vehicle and left. According to
Clark, De La Torre did not leave until Clark threat­
ened to call the sheriff. De La Torre was physically pre­
sent on Clark’s property for approximately three to six
minutes (De La Torre estimated it was three to four
minutes, while Clark estimated it was five to six
minutes).
On March 18, 2015, Clark sent a lengthy letter to
the City. The letter acknowledged that Clark’s property
“border [ed] a right of way,” but asserted that Clark
“ha[d] the right to place anything anywhere on [his]
private property that [wa]s subject to right of way us­
age so long as it d[id] not unduly interfere with the
purposes of the right of way.” Id. at 592. The letter
warned the City that it was violating, or threatening

1 According to Clark, he asked De La Torre to leave three or
four times, and approximately 10 to 15 seconds expired between
each request.

App. 6
to violate, Clark’s Constitutional rights, and it advised
that Clark might file suit against the City.
Following receipt of Clark’s letter, the City’s Mayor
met with the City Attorney, who recommended that the
City not continue its investigation of potential ordi­
nance violations by Clark. The Mayor and the City
Council subsequently met and purportedly decided not
to pursue the Notice of Violation any further. The No­
tice of Violation, however, has never been formally
withdrawn by the City.
On July 10, 2015, Clark attended a session of the
City’s Municipal Court. On the docket that day were
two status hearings for other defendants; Clark did not
have a matter on the docket. Clark, however, proceeded
to “disrupt [] the proceedings and would not permit the
judge to open court.” City of Williamsburg v. Clark, No.
115,921, 2016 WL 5171918 at *1 (Kan. Ct. App. Sept.
16, 2016). During the court session, Clark (a) refused
to stop videotaping the proceedings, despite being told
to stop by the court, (b) questioned the Municipal
Court judge’s authority to conduct the proceedings, (c)
refused to identify himself by name, and (d) refused to
remain silent. The judge, in response, found Clark in
direct contempt of court and sentenced him to two
hours in jail. ROA at 132, f 31. Clark unsuccessfully
appealed that matter to the Kansas Court of Appeals.
City of Williamsburg, 2016 WL 5171918 at *1, 6.
On July 22,2015, the City suspended the Code En­
forcement Officer position due to budget constraints.
De La Torre left the City’s employment as a Code

App. 7
Enforcement Officer and has not been replaced. Since
approximately that time, the City has also been with­
out a municipal court judge, and no judge has held a
municipal judicial proceeding in the City since May
2016.
On May 20, 2019 (approximately 11 days after the
district court in this case determined that one subsec­
tion of the challenged sign ordinance was unconstitu­
tional), the City Council passed a motion imposing a
moratorium on enforcement of any provision of the
City’s sign regulations pending “further study.” ROA at
1141.
II
On January 23, 2017, Clark, appearing pro se, ini­
tiated this action by filing a complaint pursuant to 42
U.S.C. § 1983 against the City. ECF No. 1. The com­
plaint alleged, in pertinent part, that “[t]he City imple­
mented policies which were the moving force behind
the deprivation of the constitutionally protected rights
of Clark, including the First and Fourth Amendments’
rights to freedom of expression and right to be free
from unreasonable searches.” Id. at 11. Count I alleged
a violation of Clark’s First Amendment rights. Count
II alleged a violation of Clark’s Fourth Amendment
rights. The complaint asked for relief in the form of
damages and declaratory and injunctive relief, in­
cluding enjoining the City from enforcing its sign

App. 8
regulations and from entering any part of Clark’s prop­
erty without an invitation from Clark in writing.2
On June 1, 2018, Clark filed a motion for partial
summary judgment seeking a “liability determination”
as to his claims. ROA at 146. Clark asserted in his brief
in support that “[b]ut for the City’s [sign]” ordinance,
he “would have placed political signs ... in the un­
paved portion of the right of way” on his property
“nearer than 20 feet from the centerline of the road and
left them in place . . . from July 4, 2016 to December
31, 2016 and . . . would have placed political signs out­
side of any right-of-way, but within an area of his pri­
vate property which the City enforces its right of way
restrictions . . . and left them in place . . . from July 4,
2015 to December 31,201Q” Id. at 150, % 10. Clark fur­
ther asserted that his “property is ‘in a residential one
district’ and” that, “but for the City’s regulation (Arti­
cle 8, § 4(A)(6)),” he “would have placed newly person­
alized political signs outside of any right-of-way and in
excess of ten(10) [sic] square feet.”Id., H 12.
With respect to his Fourth Amendment claim,
Clark argued that “[t]he moving force of actions which
violated [his] . . . right to be free from unreasonable
searches . . . was the City’s Zoning Regulations which
directed] such enforcement action. . . .” Id. at 182.
Clark also argued that “the City’s lack of guidance
2 On February 14, 2018, Clark filed an amended complaint
that was substantially similar to the original complaint. Both the
original and amended complaints included claims for inverse con­
demnation or an unconstitutional taking of Clark’s property by
the City. Those claims are not at issue in this appeal.

App. 9
(failure to train) to the City’s Code Enforcement Of­
ficer” resulted in a violation of his Fourth Amendment
rights. Id. According to Clark, De La Torre violated his
Fourth Amendment rights by failing to proceed to the
front door of Clark’s house and, instead, “explor[ing]
another path that lead[]” towards the back of Clark’s
house and “hollering or yelling in effort to make con­
tact” with Clark. Id. at 185.
Lastly, with respect to his First Amendment claim,
Clark argued, in pertinent part, that the City’s sign or­
dinance was “content based” and infringed on his First
Amendment rights. Id. at 194. In support, he argued
that the ordinance “prohibit [ed], through a chilling ef­
fect,” his “ability ... to express himself freely on cer­
tain topics at certain times, in certain manners, and in
certain places.” Id. at 200.
On August 9, 2018, the City filed its own motion
for summary judgment. With respect to Clark’s First
Amendment claim, the City argued that Clark lacked
standing to challenge the City’s sign ordinance. In sup­
port, the City noted that most of the provisions of that
ordinance “ha[d] never been applied nor even threat­
ened to be applied to him or his property,” and that the
one provision that was implicitly relied on in the No­
tice of Violation (which addressed signs located on
the City’s rights-of-way) was never actually enforced
against Clark. Id. at 477. The City also argued that
“[e]ven if Clark had standing to challenge the” subsec­
tion of the ordinance that “restrict [ed] signs on public
property, that [sub] section d[id] not transgress the
First Amendment” because it was content neutral. Id.

App. 10
at 481. Lastly, the City argued that the court should
sever any offending portions of the ordinance.
As for Clark’s Fourth Amendment claim, the City
argued that De La Torre’s brief entry onto Clark’s prop­
erty on March 16, 2015, did not constitute an illegal
search prohibited by the Fourth Amendment. More
specifically, the City argued that “[b]ecause De La
Torre never left the driveway, never entered any ‘curti­
lage’ of Clark’s residence and never performed any
search subject to Fourth Amendment restrictions, his
three to four-minute entry onto Clark’s property in
an effort to talk with [Clark] did not transgress the
Fourth Amendment.” Id. at 493. The City also argued
that, even if De La Torre had violated Clark’s Fourth
Amendment rights, he was not acting pursuant to any
City policy and, thus, the City was not responsible for
his actions.
On May 9, 2019, the district court issued a memo­
randum and order that granted in part and denied in
part both parties’ motions. The district court granted
partial summary judgment in favor of Clark on his
First Amendment claim “that Article 8, § 4.A.(6)” of the
City’s sign ordinance “[wa]s an unconstitutional con­
tent-based restriction.” Id. at 1081. The district court
also concluded that Clark lacked standing to challenge
any other provisions of the City’s sign ordinance, and
thus granted summary judgment in favor of the City
as to that portion of Clark’s First Amendment claim.
Id. at 1081-82. As to Clark’s Fourth Amendment claim,
the district court granted summary judgment in favor

App. 11
of the City on the grounds that “there was no search of
Clark’s property.” Id. at 1-2.
On May 17,2019, May 20,2019, and May 21,2019,
Clark filed motions to amend the judgment. The dis­
trict court denied those motions on June 19, 2019.
On July 17,2019, the case proceeded to a jury trial
on the issue of damages relating to Clark’s First
Amendment claim. At the conclusion of the evidence,
the jury found that Clark did not suffer compensatory
damages as a result of the Notice of Violation, and it
awarded him $1 in nominal damages.
Judgment was entered in the case on July 18,
2019. Clark filed a motion to amend the judgment and
a motion for new trial, both of which the district court
denied. Clark then filed a timely notice of appeal.
Ill
Clark asserts six issues in his appeal. The first
four of those issues pertain to his First Amendment
claim. The last two of those issues pertain to his Fourth
Amendment claim. For the reasons that follow, we re­
ject all six issues and affirm the judgment of the dis­
trict court.
The First Amendment claim
We begin by addressing the four issues that per­
tain to the district court’s resolution of Clark’s First
Amendment claim.

App. 12
a) Clark’s standing to challenge regulatory pro­
visions
In the district court, Clark sought to challenge all
provisions of the City’s sign ordinance. The City, in its
motion for summary judgment, argued in pertinent
part that Clark lacked standing to challenge any part
of the City’s sign ordinance. The district court granted
in part and denied in part the City’s motion and con­
cluded that Clark lacked standing to challenge any­
thing other than the subsection of the ordinance that
was effectively cited in the Notice of Violation. In Issue
IV of his opening appellate brief, Clark challenges the
district court’s grant of partial summary judgment in
favor of the City on the issue of standing.
“We review a district court’s grant of summary
judgment de novo, applying the same legal standard
as the district court.” Powell v. Bd. of Cty. Comm’rs of
Muskogee Cty., 978 F.3d 1165, 1170 (10th Cir. 2020)
(quotation marks omitted). Under that legal standard,
“[t]he court shall grant summary judgment if the mo­
vant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a).
To establish standing, a plaintiff such as Clark
must show: (1) he has suffered an “injury in fact” that
is concrete and particularized and actual or imminent,
not conjectural or hypothetical; (2) the injury is fairly
traceable to the challenged action of the defendant;
and (3) it is likely, as opposed to merely specula­
tive, that the injury will be redressed by a favorable

App. 13
decision. See Friends of the Earth v. Laidlaw Envtl.
Servs. (TOC), Inc., 528 U.S. 167, 180-81 (2000). At the
summary judgment stage, a plaintiff, in order to estab­
lish standing, must “set forth by affidavit or other evi­
dence specific facts, which for purposes of the summary
judgment motion will be taken to be true.” Lujan v.
Defs. of Wildlife, 504 U.S. 555, 561 (1992) (citations and
quotations omitted).
The City’s sign ordinance is found in Article 8 of
the City’s Zoning Regulations. Generally speaking, the
ordinance classifies signs into functional and struc­
tural types, establishes general standards for the size
and placement of signs, establishes exemptions from
the regulations, sets forth design, construction and
maintenance requirements, outlines the types and
sizes of signs permitted in each type of zoning area,
and establishes procedures for the removal of unsafe
or illegal signs.
Section 3 of Article 8 establishes the “General
Standards” for signs that are erected within the City’s
limits. ROA at 80-82. Section 4 of Article 8 sets forth
specific “Exemptions” from the “General Standards”
outlined in Section 3. Id. at 82-83. Of relevance here is
§ 4.A.(6), which states, in pertinent part, that “[t]he fol­
lowing signs shall be exempt from the requirements of
this article”:
Political signs, not exceeding a total of 20
square feet in area on a lot of record zoned for
non-residential purposes, or which is vacant
and unplatted, regardless of the zoning dis­
trict classification; and not exceeding a total

App. 14
of ten (10) square feet on a lot of record in a
residential zone district. Political signs shall
be displayed for no more than a four-week pe­
riod preceding and a one-week period follow­
ing an election. Political signs shall not be
placed on or otherwise affixed to any public
building or sign, right-of-way, sidewalk, utility
pole, street lamp post, tree or other vegetative
matter, or any public park or other public
property.
The City recognizes that the expression of po­
litical speech is an important and constitu­
tionally protected right; that political signs
have certain characteristics that distinguish
them from many of the other types of signs
permitted and regulated by the City, including
the fact that these signs generally do not meet
the regular structural design of permanent
signs, given their temporary nature; that po­
litical signs therefore present a potential haz­
ard to persons and property; and that the City
must impose reasonable time limits on the
display of political signs for these reasons.
Id.
The district court concluded that Clark lacked
standing to challenge any provision of Article 8, except
for § 4.A.(6). It was that subsection, the district court
concluded, that De La Torre implicitly referenced in
the Notice of Violation that he issued to Clark. Al­
though Clark argues on appeal that the entirety of the
City’s sign ordinance should have been addressed and
declared unconstitutional, he points to no evidence

App. 15
that could establish that he was personally impacted,
let alone injured, by the application of any of the other
provisions of the ordinance. More specifically, there is
no evidence that any City officer found that the signs
posted on Clark’s property were in violation of any of
the other provisions of the City’s sign ordinance, or in
turn that any City officer ever pursued removal of such
signs by issuing written notice to Clark pursuant to
the procedures outlined in Article 8, § 10 of the City’s
sign ordinance.3 See Winsness v. Yocom, 433 F.3d 727,
732 (10th Cir. 2006) (“The mere presence on the statute
books of an unconstitutional statute, in the absence of
enforcement or credible threat of enforcement, does not
entitle anyone to sue, even if they allege an inhibiting
effect on constitutionally protected conduct prohibited
by the statute.”). Further, it is undisputed that the City
decided not to pursue the Notice of Violation that was
issued by De La Torre.
In light of this undisputed evidence, we agree with
the district court that Clark lacks standing to chal­
lenge any provision other than Article 8, § 4.A.(6).4
3 Clark, in his opening brief, argues that some of the other
provisions of Article 8 would apply to him and would prevent his
political signs if, as the district court directed, Article 8, § 4.A.(6)
is severed from Article 8. Aplt. Br. at 19. Those arguments, how­
ever, are entirely speculative and do not reflect what actually hap­
pened in this case.
4 We also note two other relevant facts: there is no compli­
ance officer currently employed by the City, and the City has
“pass[ed] a moratorium on enforcement of any part of the sign
code pending further analysis of the constitutionality of the code.”
Aple. Br. at 13. These facts appear to render moot Clark’s

App. 16
b) The district court’s severance of Article 8,
§ 4.A. (6)
The district court granted partial summary judg­
ment in favor of Clark on his First Amendment claim,
concluding that Article 8, § 4.A.(6) of the City’s sign or­
dinance “[wa]s a content-based regulation that d[id]
not pass strict scrutiny.” ROA at 1091. The district
court in turn severed Article 8, § 4.A.(6) “from the
City’s sign ordinance.” Id. at 1100.
In Issues I and II of his opening appellate brief,
Clark argues that the district court erred in “con­
cluding] that severing one exemption,” i.e., Article 8,
§ 4.A.(6), “would cure the unconstitutionality of the en­
tire ordinance.” Aplt. Br. at 4. In support, Clark argues
that “the District Court appears to have failed to ap­
prehend that within the severed exemption was a pri­
mary authorizing provision for allowing political signs
on CLARK’s residential property—apart from also
enumerating a ‘right of way’ restriction for political
signs (which the District Court appeared to view as
the sole constitutionality problem).” Id. (emphasis
omitted). Clark argues that “[t]he District Court’s
severance of that authorizing provision changed the
controlling law(ordinance) [sic] such that previously
permitted political signs were no longer authorized on
CLARK’s property (even outside of the right of way)
leaving the regulation bare of authorization for any
challenge to any portion of the City’s sign ordinance other than
Article 8, § 4.A.(6). See Jordan v. Sosa, 654 F.3d 1012, 1023-24
(10th Cir. 2011) (discussing constitutional and prudential moot­
ness).

App. 17
political signs except for one token expression of
‘[f]lags or emblems of a government or of a political,
civil, philanthropic, educational or religious organiza­
tion’.” Id. Lastly, Clark argues that “[b]ecause the First
Amendment issue for trial was framed based solely
upon harm from the single severed provision, rather
than [the City’s sign] ordinance being found to be more
broadly unconstitutional, .. . there is a reasonable
probability that, but for the improper framing of the
issue for trial, the result of the proceeding would have
been different.” Id. at 5.
Because Clark lacks standing to challenge any
part of the City’s sign ordinance other than Article 8,
§ 4.A.(6), we conclude it is unnecessary for us to ad­
dress these arguments. In the event that the City lifts
the moratorium it has imposed on enforcement of its
regulations and in turn attempts to enforce other por­
tions of its sign ordinance against Clark, Clark would
then have the opportunity to file a new lawsuit chal­
lenging the City’s actions.
c) Framing of the First Amendment issue for
trial
In Issue III of his opening brief, Clark argues that
the district court “erred by improperly framing the
First Amendment issue for trial.” Aplt. Br. at 15. Clark
asserts that “[t]his argument is predicated upon an
errant interpretation (See ISSUE I) and improper
severing (See ISSUE II).” Id. According to Clark, “[t]he
District Court’s ruling necessarily framed the issue for

App. 18
trial as being limited to only one provision of the” City’s
sign ordinance. Id. (emphasis in original). He argues
that “[i]f . . . Article 8 were found to be more broadly
unconstitutional instead, then [he] could have shown
additional evidence of damages at trial.” Id. at 15-16.
Clark asserts that “[w]ith a different understanding
(e.g., that the entirety of Article 8 was unconstitu­
tional) going into trial, [he] could have shown further
injury through evincing what [De La Torre’s] belief was
when he issued the notice of violation to [Clark] about
‘other affixed objects’, e.g., threatened removal of a
cross and even removal of a mailbox.”5 Id. at 16 (cita­
tion omitted).
For the reasons already discussed, we conclude
that the district court did not err in limiting the dam­
age issues at trial to those pertaining to Article 8,
§ 4.A.(6). Simply put, Clark lacks standing to challenge
any other provision of the City’s sign ordinance.
The Fourth Amendment claim
We now turn to the two challenges that Clark as­
serts in his appeal to the district court’s resolution of
his Fourth Amendment claim. In Issue V of his opening
appellate brief, Clark argues that the district court
“erred by granting summary judgment to the CITY on
the Fourth Amendment claim—either by improperly
drawing inferences in favor of the movant rather than
5 Clark concedes that these objects were not mentioned in
the Notice of Violation, but he asserts that De La Torre mentioned
those items during his deposition in this matter. Aplt. Br. at 17.

App. 19
the nonmovant and/or by improperly finding a fact not
actually asserted by any party.” Aplt. Br. at 27 (capital­
ization in original). In Issue VI, Clark argues that the
district court “erred in its determination of law con­
cerning the Fourth Amendment as applied to the un­
disputed evidence” and he concedes that “[t]he issue is
somewhat derivative of Issue V. Id. at 37. Thus, in sum,
Clark is challenging the district court’s grant of sum­
mary judgment in favor of the City with respect to
Clark’s Fourth Amendment claim.
We begin our analysis of Clark’s arguments by
briefly reviewing the Supreme Court case on which
Clark has consistently relied in support of his Fourth
Amendment claim, Florida v. Jardines, 569 U.S. 1
(2013). In Jardines, the Supreme Court “considered]
whether using a drug-sniffing dog on a homeowner’s
porch to investigate the contents of the home is a
“search” within the meaning of the Fourth Amend­
ment.” Id. at 3. At the outset of its opinion, the Court
noted that “ [t] he Fourth Amendment provides in rele­
vant part that the ‘right of the people to be secure in
their persons, houses, papers, and effects, against un­
reasonable searches and seizures, shall not be vio­
lated.’” Id. at 5. In other words, the Court noted, the
Fourth Amendment “establishes a simple baseline, one
that for much of our history formed the exclusive basis
for its protections: When the Government obtains in­
formation by physically intruding’ on persons, houses,
papers, or effects, a search within the original meaning
of the Fourth Amendment has “undoubtedly occurred.”
Id. (quotations omitted). The Court then noted that

App. 20
“when it comes to the Fourth Amendment, the home is
first among equals,” and that “the area immediately
surrounding and associated with the home,” i.e., the
home’s curtilage, is “part of the home itself for Fourth
Amendment purposes.” Id. at 6 (quotations omitted).
The curtilage, the Court noted, “is intimately linked to
the home, both physically and psychologically, and is
where “privacy expectations are most heightened.” Id.
at 7 (quotations omitted).
Because “the officers’ investigation” in Jardines
“took place in a constitutionally protected area,” i.e.,
the front porch of the home, the Court “turnfed] to
the question of whether [the investigation] was ac­
complished through an unlicensed physical intrusion.”
Id. Addressing that question, the Court noted that
“[w]hile law enforcement officers need not shield their
eyes when passing by the home on public thorough­
fares, an officer’s leave to gather information is sharply
circumscribed when he steps off those thoroughfares
and enters the Fourth Amendment’s protected areas.”
Id. (quotations and citation omitted). The Court in turn
noted that it has recognized an “implicit license” that
“typically permits the visitor to approach the home by
the front path, knock promptly, wait briefly to be re­
ceived, and then (absent invitation to linger longer)
leave.” Id. at 8. Thus, the Court held, “a police officer
not armed with a warrant may approach a home and
knock, precisely because that is no more than any pri­
vate citizen might do.” Id. “But,” the Court also held,
“introducing a trained police dog to explore the area
around the home in hopes of discovering incriminating

App. 21
evidence is something else.” Id. at 9. The Court ex­
plained:
There is no customary invitation to do that.
An invitation to engage in canine forensic in­
vestigation assuredly does not inhere in the
very act of hanging a knocker. To find a visitor
knocking on the door is routine (even if some­
times unwelcome); to spot that same visitor
exploring the front path ,with a metal detector,
or marching his bloodhound into the garden
before saying hello and asking permission,
would inspire most of us to—well, call the po­
lice. The scope of a license—express or im­
plied—is limited not only to a particular area
but also to a specific purpose, * H= * Here, the
background social norms that invite a visitor
to the front door do not invite him there to
conduct a search.
Id. (emphasis in original) (footnote omitted).
Having outlined the holding in Jardines, we next
turn to the district court’s analysis and rejection of
Clark’s Fourth Amendment claim. The district court
recognized at the outset that Clark was “alleging] that
De La Torre performed an unlawful search of his prop­
erty on March 16, 2015,” and that “Clark attributed]
this to the City’s zoning ordinance or else the City’s
failure to train its code enforcement officers, either of
which he contend [ed] ma[de] the City liable for De La
Torre’s actions.” ROA at 1103. The district court noted,
however, that the threshold question was whether De
La Torre’s actions were unconstitutional in the first
place. Id. As to that issue, the district court noted that

App. 22
Clark’s theory was “that De La Torre entered his prop­
erty seeking information about whether Clark would
remove the signs and did so in a manner that ‘exceeded
the implied license of Florida v. Jardines.’ ” Id. (quoting
ECF No. 79 at 34-35). More specifically, the district
court noted that “Clark t[ook] issue with the fact that
De La Torre did not knock on his front door but instead
walked down the driveway after hearing noises toward
the back” of the house. Id.
To address Clark’s theory, the district court began
by outlining the applicable law, with particular empha­
sis on Jardines. Jardines, the district court noted, “ex­
plained that an implicit license exists that allows
visitors to ‘approach the home by the front path, knock
promptly, wait briefly to be received, and then (absent
invitation to linger longer) leave,”’ and that “[t]he
same license is extended to law enforcement officers.”
Id. at 1104 (quoting Jardines, 569 U.S. at 8). Clark, the
district court in turn noted, was arguing “that Jardines
drew an explicit line about what is allowed for a knockand-talk” and that, in particular, it authorized entry
only by the front path of a home. Id. The district
court rejected Clark’s interpretation of Jardines: “It
[Jardines] did not hold that was the only permissible
way to approach a house.” Id. (emphasis in original).
Rather, the district court stated, the facts of Jardines
involved an officer “bringing a drug-sniffing dog onto
the front porch [of a home] to do an investigation.” Id.
at 1104-05. The district court also noted that in United
States v. Shuck, 713 F.3d 563 (10th Cir. 2013), we held
that officers did not violate the defendant’s Fourth

App. 23
Amendment rights by approaching the back door of his
trailer and conducting a knock-and-talk. Id. at 1105.
The district court emphasized that in reaching our con­
clusion, we concluded that the evidence established
that approaching the back door of the trailer was the
normal route of access for visitors. Id.
The district court concluded that “[t]he facts in
Shuck [we]re similar to the facts in” Clark’s case. Id. at
1106. The district court stated that it was “undisputed
that there was no path to the front porch” of Clark’s
home “from the driveway, the steps were partially
blocked with vegetation, and items on the porch at
least partially blocked the front door.” Id. The district
court also stated that Clark admitted “that he had
‘trained’ at least some of his visitors to come to the
back entrance, and that he hoped the state of the front
entrance would deter visitors.” Id. “These undisputed
facts,” the district court concluded, “coupled with De La
Torre hearing someone towards the back of the house,
made his decision to walk that way in an attempt to
contact Clark entirely reasonable,” and that “no rea­
sonable jury could find otherwise.” Id. The district
court also concluded that “[t]he fact that the front door
was partially visible, as Clark contend [ed], d[id] not
change the fact that De La Torre reasonably assumed
that the front door was not the primary entrance.” Id.
In addition, the district court concluded De La Torre
did not exceed the scope of the license because “[w]hen
Clark asked him to leave, he did so,” and that “[i]t [wa]s
undisputed that De La Torre was at the property no
more than a few minutes and left within a minute of

App. 24
being asked to leave.” Id. Ultimately, the district court
concluded it “d [id] not need to determine whether De
La Torre entered the curtilage of Clark’s home, because
even if he did, his actions in trying to find Clark on the
property were taken in accordance with the implied li­
cense to approach the house,” and that “[n]o reasonable
jury could conclude there was a search of Clark’s prop­
erty under these facts.”6 Id.

6 The dissent ignores this latter part of the district court’s
ruling and suggests, erroneously, that the question of whether a
search occurred is not properly before us on appeal. In fact, the
issue of whether a search occurred for purposes of the Fourth
Amendment was raised by the parties in their summary judg­
ment pleadings and ultimately addressed by the district court in
its memorandum and order ruling on the summary judgment mo­
tions.
Indeed, Clark himself squarely presented the issue in his
own motion for partial summary judgment. In that motion, Clark
sought a “[liability determination for Fourth Amendment viola­
tion,” and alleged in support that there was an “unconstitutional
search.” R. at 159-60 (capitalization omitted). In support, Clark
alleged that De La Torre “enter[ed] upon the curtilage of Clark’s
property seeking information about compliance without a war­
rant and without any applicable exception to the Fourth Amend­
ment warrant requirement.” Id. at 181. He further argued that
“[w]hen the government engages in physical intrusion of a consti­
tutionally protected area in order to obtain information, that in­
trusion constitutes a violation of the Fourth Amendment.” Id.
Clark argued that because De La Torre “had a purpose of seeking
information,” and “for reason of hearing noises, skip[ped] any at­
tempt to knock on the front door, and explore [d] another path that
lead[] towards the noises heard and beg[an] hollering or yelling
in an effort to make contact in order to gather the information
sought, his actions became an unreasonable search of the curti­
lage of Clark’s home.” Id. at 185.

App. 25
In Issue V of his appellate brief, Clark argues that
the district court erred in a number of respects in
granting summary judgment in favor of the City on his
Fourth Amendment claim. We need not address each of
those arguments in detail, however, because even if we
were to assume that the district court erred in the re­
spects asserted by Clark, none of those errors under­
mine the district court’s ultimate conclusion that the
City was entitled to summary judgment on Clark’s
Fourth Amendment claim. As the Supreme Court
in Jardines noted, the Fourth Amendment prohibits,
in pertinent part, unreasonable searches and thus
The City, in its response to Clark’s motion for partial sum­
mary judgment and in its own motion for summary judgment, ar­
gued that De La Torre’s entry onto Clark’s property did not
constitute an illegal search prohibited by the Fourth Amendment.
Id. at 686. More specifically, the City argued that “De La Torre
performed no search but only sought to contact Clark by walking
down his driveway to the rear of Clark’s residence.” Id. The City
also argued that “[e]ven if the brief presence of De La Torre on
Clark’s property is considered under Clark’s version of the inci­
dent, no Fourth Amendment violation occurred.” Id. at 691.
On May 9, 2019, the district court issued a memorandum and
order ruling on both Clark’s motion for partial summary judg­
ment and the City’s motion for summary judgment. The district
court denied Clark’s motion for partial summary judgment, and
granted the City’s motion for summary judgment, “on Clark’s
Fourth Amendment claim (because there was no search of Clark’s
property).” Id. at 1081-82.
As a result, we conclude that the question of whether a search
occurred within the scope of the Fourth Amendment is, contrary
to the dissent’s assertion, properly before us on appeal. And, be­
cause we conclude that no search occurred, we conclude it is un­
necessary to address the other various points raised by the
dissent concerning what constitutes the curtilage of Clark’s home.

App. 26
prohibits the government from “obtain [ing] informa­
tion by physically intruding on” a person’s home. 569
U.S. at 5. Here, it is undisputed that De La Torre en­
tered Clark’s property with the sole intent of speaking
consensually with Clark and attempting to resolve the
alleged violations. Further, it is undisputed that he did
not succeed in that goal. Although De La Torre asked
to speak with Clark, Clark responded immediately by
yelling at De La Torre to leave. De La Torre complied
and, as a result, did not speak with Clark and thus
gathered no information. In short, no “search” occurred
for purposes of the Fourth Amendment. See Jardines,
569 U.S. at 9 n.4 (“[I]t is not a Fourth Amendmeht
search to approach the home in order to speak with the
occupant, because all are invited to do that”); United
States v. Carloss, 818 F.3d 988, 993 (10th Cir. 2016)
(concluding that officers did not conduct a Fourth
Amendment search when they approached the front
door of a home and attempted to consensually speak
with the occupant).
Finally, in Issue VI of his appellate brief, Clark ar­
gues, in pertinent part, that “[t]here should be no dis­
pute that a ‘knock and talk’ is a search” that, to be
reasonable, must “not stray outside of the implied li­
cense.”7 Aplt. Br. at 38. Again, we need not address this
argument because, in light of the undisputed evidence
presented in this case, we conclude that no “knock and
talk” occurred in this case. Although De La Torre ap­
proached Clark and asked to consensually speak with
7 The remainder of Issue VI, as Clark himself concedes, is
basically a repeat of the arguments asserted in Issue V.

App. 27
him, Clark immediately and repeatedly yelled at De La
Torre to leave his property and De La Torre complied
and left. Thus, De La Torre did not complete any “knock
and talk” and gathered no information.
IV

The judgment of the district court is AFFIRMED.
Entered for the Court
Mary Beck Briscoe
Circuit Judge

Eric S. Clark v. City of Williamsburg, Kansas, No. 193237, Bacharach, J., concurring in part and dissenting
in part.
This case arises from efforts by the City of Wil­
liamsburg, Kansas to enforce a sign code against Mr.
Eric Clark. I agree with the majority that Mr. Clark
lacked standing to challenge the relevant provisions of
the sign code, so I join Parts I, II, and 111(a)—(c) of the
majority’s opinion. But I respectfully disagree with the
majority’s disposition of Mr. Clark’s Fourth Amend­
ment claim.
To decide this claim, we must consider the scope of
a homeowner’s right to privacy. In considering the
scope of this right, we recognize that

App. 28
•

municipal officers typically enjoy the same
customary privileges enjoyed by other visitors
and

•

most visitors would expect permission to
knock on a house’s front door.

So municipal officers may ordinarily knock on the front
door of a house without violating the Fourth Amend­
ment.
But what if a homeowner obstructs the front door,
signaling to visitors that they are not welcome? Could
a reasonable factfinder infer that the homeowner
doesn’t want visitors to enter a partially enclosed back
yard? The district court answered “no” and granted
summary judgment to the city on the homeowner’s
Fourth Amendment claim. I disagree and would re­
verse the grant of summary judgment to the city.
1.

The city’s code-enforcement officer ap­
proached the back yard after seeing that
visitors were not welcome at the front door.

Mr. Clark alleges a Fourth Amendment violation
stemming from a visit by the city’s code-enforcement
officer, Tony De La Torre. Officer De La Torre saw that
the front door was inaccessible,1 but allegedly heard a
sound in the back. So he walked up the driveway and,
according to Mr. Clark, turned behind the house onto
1 Mr. Clark contends that the evidence allowed a reasonable
finding that the front door had been accessible to visitors. The city
disagrees, as do I.

App. 29
the gravel parking area. A few feet away stood an en­
closure, consisting of a canopy of sheets draped around
a swimming tank and the back door.
Mr. Clark heard someone entering his back yard
and demanded that Officer De La Torre leave. He did.
2.

Officer De La Torre had no implied license
to enter the curtilage of Mr. Clark’s house.

The resulting issue is whether Officer De La Torre
violated the Fourth Amendment by intruding into Mr.
Clark’s curtilage without an implied license. The issue
arose when the city moved for summary judgment,
denying the existence of a search on grounds that Of­
ficer De La Torre had not entered the curtilage or ex­
ceeded an implied license.
A. We engage in de novo review and con­
sider the evidence in the light most fa­
vorable to Mr. Clark.
Summary judgment is appropriate only if the city
showed the absence of a genuine dispute of material
fact. T-Mobile Cent., LLC u. Unified Gov’t of Wyandotte
Cty., Kansas City, Kan., 546 F.3d 1299, 1306 (10th Cir.
2008). The district court granted summary judgment
to the city, so we must conduct de novo review by con­
sidering the evidence in the light most favorable to Mr.
Clark. Id.

App. 30
B. The factfinder could reasonably con­
sider the gravel parking area as part of
the curtilage.
The Fourth Amendment supplies protection not
only for one’s house but also the curtilage, which is “the
area to which extends the intimate activity associated
with the sanctity of a [person’s] home and the privacies
of life.” Reeves v. Churchich, 484 F.3d 1244, 1254 (10th
Cir. 2007) (quoting Oliver v. United States, 466 U.S.
170, 180 (1984)). The scope of the curtilage is a legal
question. United States v. Cousins, 455 F.3d 1116,1121
& n.4 (10th Cir. 2006) (en banc footnote). But this legal
question turns on facts, which we consider in the light
most favorable to Mr. Clark. See United States v. De­
pew, 210 F.3d 1061,1067 (9th Cir. 2000) (“Determining
whether an area is within a home’s curtilage is a factintensive inquiry.”); Bleavins v. Bartels, 326 F.3d 887,
891 (7th Cir. 2003) (“The inquiry into whether an area
can be considered curtilage is fact-intensive.”); see also
Part 2(A), above (stating that the court must view the
evidence favorably to Mr. Clark).
In determining whether a particular area consti­
tutes part of the curtilage, we consider four factors:
1.

proximity to the house,

2.

existence of an enclosure,

3.

use of the area, and

4.

steps taken to enhance privacy.

App. 31
United States v. Dunn, 480 U.S. 294,301 (1987). In con­
sidering these factors, we must view the evidence in
the light most favorable to Mr. Clark. See Part 2(A),
above. When the evidence is viewed in this light, the
first, third, and fourth factors support classification of
the gravel parking area as part of the curtilage.
The first factor (proximity to the house) favors Mr.
Clark. Officer De La Torre walked up the driveway to
the side of Mr. Clark’s house and then turned behind
the house onto a gravel parking area. This parking
area was not clearly visible from the street.2
The second factor (existence of an enclosure) fa­
vors the city because Officer De La Torre did not enter
the enclosed canopy.
The third factor (use of the area) favors Mr. Clark’s
view that the gravel parking area was part of the cur­
tilage. The area was used for parking, and only a few
feet away stood the canopy over the small tank used
for swimming. The factfinder could reasonably infer
that parking vehicles and swimming are activities
intimately tied to home life, so this factor supports
treatment of the gravel parking area as curtilage. See
United States v. Alexander, 888 F.3d 628, 633 (2d Cir.
2018) (upholding a finding that an area for parking
cars was continuous with the back yard and within the
curtilage); Harris v. O’Hare, 770 F.3d 224, 240 (2d Cir.

2 The city states that Officer De La Torre remained in an
area that was visible from the street. Appellee’s Resp. Br. at 22.
But the city provides no citation for this statement.

App. 32
2014) (referring to swimming as a private activity as­
sociated with the curtilage).
The fourth factor (steps taken to enhance privacy)
also supports treatment of the gravel parking area as
curtilage. This area lay adjacent to Mr. Clark’s house
and could not clearly be seen from the street. Passersby
could see into the area only by approaching the back
yard.
Precedent supports consideration of the gravel
parking area as part of the curtilage. In Collins v. Vir­
ginia, 138 S. Ct. 1663,1671 (2018), the Supreme Court
considered a similar area part of the curtilage. There a
driveway ran alongside a house and past the front part
of the house; the relevant area was the end of the drive­
way, enclosed on two sides by a low wall and on the
third side by the house itself. Id. at 1670-71. Similarly,
in Lundstrom v. Romero, 616 F.3d 1108, 1128-29 (10th
Cir. 2010), we concluded that the curtilage included an
area abutting the back of a house.
As in Collins, the relevant area was a continuation
of the driveway. Mr. Clark’s gravel parking area was
enclosed on two sides rather than three. But unlike
the area in Collins, Mr. Clark’s gravel parking area
couldn’t be seen clearly from the street. As in Lund­
strom, the area at issue was near the back of the house.
In light of Collins, Lundstrom, and Mr. Clark’s evi­
dence, I would regard the gravel parking area as part
of the curtilage.

App. 33
C. A genuine factual dispute exists on
whether the implied license extended
to the gravel parking area.
The resulting issue is whether Officer De La Torre
had license, or permission, to enter the gravel parking
area.
Permission can be express, but can also be implied
from general societal practice. Florida v. Jardines, 569
U.S. 1, 8 (2013). For example, societal customs ordinar­
ily create an expectation that someone can walk along
a pathway to a front door and knock. Id.
The parties disagree on whether Mr. Clark’s yard
had a pathway to his front door. But regardless of a
pathway, Mr. Clark apparently did not want visitors at
his front door, for this is what they would have seen:
r.

App. 34
With this view of the front of Mr. Clark’s house,
would societal custom have led Officer De La Torre to
think that he was welcome to go to the back yard and
knock on Mr. Clark’s back door? And would that sense
of welcome have continued once Officer De La Torre
approached the gravel parking area and saw that Mr.
Clark had constructed a sheet canopy, preventing oth­
ers from seeing into the area outside his back door? A
reasonable factfinder could answer “no” to these ques­
tions.
In oral argument, the city was asked if Officer De
La Torre would have had an implied license to enter
the gravel parking area if Mr. Clark had posted a “no
visitors” sign. The city answered “no.” But a reasonable
factfinder could consider Mr. Clark’s obstructions out­
side his front door as a sign that he did not want unin­
vited visitors at any door.
The district court concluded that the implied li­
cense had extended to the gravel parking area, relying
on United States v. Shuck, 713 F.3d 563 (10th Cir.
2013). There we reviewed the denial of a motion to sup­
press, so we considered the evidence in the light most
favorable to the government. Id. at 567. But here we
must do the opposite, considering the evidence in the
light most favorable to Mr. Clark. See Part 2(A), above.
Shuck does not help us determine whether an implied
license exists if we view the evidence favorably to the
homeowner.
The city argues that Officer De La Torre went to
the back because he thought that Mr. Clark was there.

App. 35
But Officer De La Torre did not say that he had heard
Mr. Clark in the back. Instead, Officer De La Torre
simply said that he had heard “a sound” in the back,
which led him to believe that someone was working in
the back. R. at 1053-54. A factfinder could reasonably
infer that visitors would not ordinarily expect permis­
sion to enter a back yard based only on a sound sug­
gesting that work was being done there, particularly
when obstructions outside the front door indicate that
uninvited visitors are not welcome.
The city disagrees, citing opinions for the proposi­
tion that an implied license permits entry into the back
yard when the front door is inaccessible or an occupant
appears to be home and doesn’t answer the door.
In arguing that entry into the back yard was per­
missible, the city relies largely on opinions predating
Jardines: Galindo v. Town of Silver City, 127 F. App’x
459, 466 (10th Cir. 2005) (unpublished); United States
v. Cavely, 318 F.3d 987, 994 (10th Cir. 2003); Estate of
Smith v. Marasco, 318 F.3d 497, 519 (3d Cir. 2003);
Alvarez v. Montgomery Cty., 147 F.3d 354, 357 (4th Cir.
1998); United States v. Daoust, 916 F.2d 757, 758 (1st
Cir. 1990); United States v. Freeman, 426 F.2d 1351,
1352-53 (9th Cir. 1970); and United States v. Diaz,
No.l:09cr9-SPM, 2009 WL 3675006, at *2 (N.D. Fla.
Oct. 30, 2009) (unpublished), aff’d, 404 F. App’x 381
(11th Cir. 2010) (unpublished). In one of these opinions,
the court did not provide any reasoning. Daoust, 916
F.2d at 758. In the other opinions, the courts reasoned
that the homeowners had lacked reasonable expecta­
tions of privacy. Galindo, 127 F. App’x at 466; Cavely,

App. 36
318 F.3d at 993—94\ Alvarez, 147 F.3d at 357—58; Free­
man, 426 F.2d at 1354; Diaz, 2009 WL 3675006, at *2.
In the remaining opinion, the court ruled for the plain­
tiff, but used a pre-Jardines analysis based on the
homeowner’s expectation of privacy. Marasco, 318 F.3d
at 521. Jardines affected the viability of all of these
opinions by holding that the Fourth Amendment is
implicated whenever an officer enters the curtilage
without an express or implied license. 569 U.S. at 5-6,
9-11.
In arguing that officers could enter the back yard
when an occupant does not answer the front door, the
city relies on Hardesty v. Hamburg Township, 461 F.3d
646, 654 (6th Cir. 2006). This opinion also predated
Jardines; and the Sixth Circuit ultimately abrogated
Hardesty, noting that its reasoning was no longer via­
ble after Jardines. Morgan v. Fairfield Cty., Ohio, 903
F.3d 553, 565 (6th Cir. 2018).
The city also relies on two other opinions:
•

Carroll v. Carman, 574 U.S. 13 (2014) and

•

United States v. Garcia, 997 F.2d 1273 (9th
Cir. 1993).

But these opinions shed no light on the scope of Officer
De La Torre’s implied license. In Carroll, the Court
expressly declined to decide whether an officer could
knock on a door other than the front door. 574 U.S. at
20. In Garcia, the court concluded that officers had not
exceeded an implied license. 997 F.2d at 1279-80. But
there the officers reasonably mistook the back door for

App. 37
the front door, and both doors were immediately acces­
sible from a public area. Id.
* * *

If we view the evidence in the light most favorable
to Mr. Clark, as required, a reasonable factfinder could
infer that Officer De La Torre had entered the curtilage
without an implied license.
The city contends that Mr. Clark had made it clear
that he did not want uninvited visitors coming to his
front door, leading them instead to the back door. But
a reasonable factfinder could infer that Mr. Clark had
also made it clear that he didn’t want uninvited visi­
tors coming to his back door, for he had constructed a
canopy supplying privacy in his back yard.
The back yard was not visible from the street in
front of the house, so why would Officer De La Torre
assume that he was welcome to enter the back yard if
he wasn’t welcome at the front door? Because he heard
a sound toward the back? Perhaps. But viewing the ev­
idence favorably to Mr. Clark, a factfinder could rea­
sonably infer that hearing a sound does not serve as
an implied license to enter the back yard.
3.

We should not sua sponte affirm on an ar­
gument that the city has not raised.

The majority doesn’t consider the scope of the cur­
tilage or existence of an implied license, relying in­
stead on the absence of any information collected from
Mr. Clark’s property. But in district court and on

App. 38
appeal, the city denied that a search had taken place
solely on the ground that Officer De La Torre had not
entered the curtilage or exceeded an implied license.
A. The majority erroneously relies on ex­
cerpts from the city’s brief in district
court, where the city denied a search
based on the scope of the curtilage and
existence of an implied license.
The majority points out that in district court, the
city denied the existence of a search. But the city did
not base the denial of a search on the failure to collect
information; the city instead relied on the scope of the
curtilage and the existence of an implied license. The
majority’s two examples illustrate the difference.
First, the majority quotes the city’s statement that
Officer De La Torre did not conduct a search because
he just “walkfed] down [the] driveway to the rear of
Clark’s residence. . . .” Maj. Op. at 22 n.6. The sentence
continues: “which is the commonly-used entrance to
Clark’s residence.” R. at 686. This was the city’s argu­
ment that it hadn’t conducted a search because Officer
De La Torre had an implied license to enter the gravel
parking area.
Second, the majority quotes the city’s statement
that Officer De La Torre’s brief presence did not violate
the Fourth Amendment. Maj. Op. at 22 n.6; R. at 691.
This statement appears in an argument involving the
time that Officer De La Torre took to leave, not the col­
lection of information. R. at 691. Before discussing the

App. 39
time taken by Officer De La Torre, the city had spent
roughly 5-1/2 pages denying the existence of a search
based on its arguments involving the curtilage and im­
plied license. R. at 686-91. Given this context, the cited
statement does not encompass an argument denying
the existence of a search based on the failure to collect
information. See Crowson v. Washington Cty. State of
Utah, No. 19-4118, 19-4120, __ F.3d
, 2020 WL
7706471, at *9 n.9 (10th Cir. Dec. 29, 2020) (to be pub­
lished) (declining to consider the appellee’s single­
sentence argument for an alternative ground to affirm
because the appellee’s argument was perfunctory);
Jordan v. Maxim Healthcare Servs., Inc., 950 F.3d 724,
742 n.14 (10th Cir. 2020) (stating that an appellee’s
“oblique nod” to an issue was perfunctory and likely
didn’t suffice to preserve an argument for affirmance).
B. Mr. Clark had no reason to present evi­
dence on this issue when responding to
the city’s motion.
The majority points out that Mr. Clark briefly ar­
gued in district court that he was entitled to partial
summary judgment because Officer De La Torre had
tried to gather information. Maj. Op. at 22 n.6; R. at
181, 185. But the city did not contest this argument
when seeking summary judgment. So when Mr. Clark
responded to the city’s summary-judgment motion, he
noted the absence of a dispute over Officer De La
Torre’s purpose of collecting information. R. at 849.
Mr. Clark could reasonably conclude that he had no
need to further address the issue, for the city never

App. 40
contested Officer De La Torre’s intent to gather infor­
mation or sought summary judgment on this basis.
If the city had denied a search based on the failure
to collect information, Mr. Clark might have made fur­
ther arguments or presented supporting evidence. See
John G. Alden, Inc. of Mass. v. John G. Alden Ins.
Agency of Fla., Inc., 389 F.3d 21, 25 (1st Cir. 2004) (“At
a minimum, the party preparing the response must
have the motivation of knowing that it is the target of
a summary judgment motion”). In my view, it is “un­
fair to affirm a summary judgment against a plaintiff
for lack of evidence of an element of the cause of action
unless the defendant has clearly challenged that lack
of evidence in district court.” Evers v. Regents of the
Univ. of Colo., 509 F.3d 1304,1309-10 (10th Cir. 2007).
C. The district court denied the existence
of a search based on the existence of an
implied license, not the absence of any
collection of information.
The majority also points out that the district court
concluded that no search had taken place. But the dis­
trict court relied solely on its conclusion that Officer
De La Torre had not exceeded an implied license. For
example, the court summarized the city’s argument:
Defendants counter that De La Torre never
entered the curtilage of Clark’s property, and
even if he did, he did so in taking the most
common path available to visitors in an at­
tempt to contact Clark.

App. 41
R. at 1103-04. Addressing this argument, the court con­
cluded that Officer De La Torre had an implied license
to go where he did. Based solely on this implied license,
the court denied the existence of a search:
Accordingly, the Court does not need to
determine whether De La Torre entered the
curtilage of Clark’s home, because even if he
did, his actions in trying to find Clark on the
property were taken in accordance with the
implied license to approach the house. No rea­
sonable jury could conclude there was a
search of Clark’s property under these facts.
Id. at 1107. But the court did not make any findings
about whether Officer De La Torre had collected infor­
mation.
D. As a whole, the pertinent factors weigh
against affirmance on a ground that the
city hasn’t presented on appeal.
But even if the majority were right about the city’s
argument in district court, the city’s appellate argu­
ments do not rely on the absence of information col­
lected from Mr. Clark’s property. The city’s appellate
arguments instead rely solely on the scope of the cur­
tilage and existence of an implied license.3

3 For example, the city argues:
[A]s noted by the dissent in Florida v. Jardines,
569 U.S. 1, 133 S. Ct. 1409 (2013), a “knock and talk”
has as its purpose discovering information but a “knock
and talk” is not a search because “all are invited to do

App. 42
Despite the city’s framing of the issue, we have dis­
cretion to affirm on other grounds if supported by the
record. Elkins v. Comfort, 392 F.3d 1159, 1162 (10th
Cir. 2004). In deciding whether to exercise this discre­
tion, we consider three factors:
1.

whether the ground was fully briefed and ar­
gued both in district court and on appeal,

2.

whether the parties had a fair opportunity to
develop the factual record, and

3.

whether our decision would involve only ques­
tions of law.

Id.
In balancing these factors, reasonable minds can
differ. In my view, however, these factors weigh against
relying on the absence of a search based on the failure
to collect information. Though the majority has raised
an issue of law, the city has not briefed this issue and
it turns on undeveloped facts.
In similar circumstances, we recently declined to
affirm on a ground not presented in district court or on
appeal, calling the practice “imprudent.” United States
u. Chavez, 976 F.3d 1178, 1203 n.17 (10th Cir. 2020).

that.” 133 S. Ct. at 1424. [Officer] De La Torre’s at­
tempt to visit with plaintiff was not a search because
he did no more than what “all are invited” to do by at­
tempting to contact plaintiff in a manner that did not
deviate from the implied invitation.
Appellee’s Resp. Br. at 26.

App. 43
Relying on a new ground to affirm would be equally
imprudent here.
* * *

I would address the reasons given by the city and
district court for denying the existence of a search: the
scope of the curtilage and the extent of an implied li­
cense. So I respectfully dissent from the majority’s re­
jection of the Fourth Amendment claim. In my view,
Mr. Clark overcame summary judgment on this claim.

App. 44
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
ERIC S. CLARK,
PLAINTIFF,
v.
THE CITY OF WIL­
LIAMSBURG, KANSAS,

CASE NO.
2:17-CV-02002-HLT

DEFENDANT.
MEMORANDUM AND ORDER
(Filed May 9, 2019)
Plaintiff Eric Clark brings this action under 42
U.S.C. § 1983 alleging Defendant City of Williamsburg,
Kansas (“City”) violated his constitutional rights un­
der the First and Fourth Amendments.1 He also brings
an inverse condemnation action under Kansas state
law. Doc. 55 at 14. This case stems from a violation no­
tice the City sent Clark regarding signs at the edge of
Clark’s property. Both parties have filed summaryjudgment motions as to all claims. Doc. 78; Doc. 91.
As to Clark’s First Amendment claim, the Court
finds that Article 8, § 4.A.(6) is an unconstitutional
content-based restriction and, therefore, grants Clark
1 Clark mentions the Fifth and Fourteenth Amendments on
the first page of his First Amended Complaint—the operative
complaint—but the First Amended Complaint does not include a
cause of action under the Fifth or Fourteenth Amendments. Doc.
55 at 1, 14.

App. 45
summary judgment on that count. That provision is
severable from the remainder of the City’s sign ordi­
nance, which the Court does not evaluate because
Clark lacks standing to make that challenge. The
Court grants summary judgment to the City on
Clark’s Fourth Amendment claim (because there was
no search of Clark’s property), and on Clark’s in­
verse-condemnation claim (because Clark has not es­
tablished any taking).
I.

BACKGROUND

On February 23,2015, the City’s code enforcement
officer, Tony De La Torre, sent Clark a “NOTICE OF
VIOLATION” of the City’s sign ordinance. Doc. 79 at
4; Doc. 92-22 at 2. The violation notice stated that
Clark was in violation of the City’s sign ordinance be­
cause he had “three large barrels, several signs, and
other affixed objects” on the City’s “right of way.” Doc.
92 at 18. According to the violation notice, the items
Clark needed to remove were located within the
City’s eighty-foot easement. Id. The violation notice re­
quested Clark’s voluntary cooperation, but it also in­
formed him a citation could be issued and the items
removed if he did not comply. Doc. 92 at 5-6; Doc. 100
at 4; Doc. 92-22 at 2. The violation notice directed Clark
to immediately contact the City by phone if he had any
questions or believed he received the notice in error;
otherwise, “actions will continue toward resolution.”
Doc. 92-22 at 2. Clark did not call. Doc. 100 at 27.

App. 46
On March 16, 2015, De La Torre went to Clark’s
property to discuss the matter. Doc. 79 at 10-11; Doc.
92 at 12. Clark’s house sits back from the road and has
a gravel driveway on one side that extends from the
road to the back of the house, where it widens into a
gravel apron or parking area. Doc. 92 at 14. On the day
De La Torre went to Clark’s property, there were no
“No Trespass” signs posted. Id. Clark seldom uses the
front door of his house and has trained his family mem­
bers to go to the back door when they visit. Id. at 15.
The front door, which has no doorbell, is accessed by a
front porch with steps up the front. Id. at 15-16. There
is no sidewalk or worn path to the front porch, and cer­
tain items on the porch partially blocked the entrance,
or at least would have required a visitor to squeeze by
them to get to the door. Id. A tarp was hung up along
the north side of the porch. Id. at 15. Vegetation cov­
ered at least some of the entrance to the front porch.
Id. At his deposition, Clark was asked, “Would you
agree that it doesn’t look like an invitation to the front
door with those things sitting in front of it?” Clark an­
swered, “I would hope so, but I can’t really say that no­
body would be deterred from going up there.” Id.; Doc.
100 at 18.
On March 16, 2015, De La Torre parked near the
road. He walked up the driveway and saw that there
was no path to the front door and that the door itself
was blocked by items on the porch. He then heard
someone in the back and started walking that way on
the driveway. Doc. 92 at 16-17; Doc. 100 at 19-20. De
La Torre then encountered Clark, who got angry and

App. 47
told De La Torre to leave several times in the span of
less than a minute. Doc. 92 at 17. Clark then went back
into the house and De La Torre left. Doc. 92 at 16; Doc.
100 at 19. De La Torre believes he only proceeded half­
way to three-quarters up the driveway and did not
leave the driveway or gravel apron/parking area near
the back of the house. Doc. 92 at 17; Doc. 100 at 20-21.
De La Torre estimates he was on Clark’s property for
3-4 minutes; Clark claims it was 5-6 minutes. Doc. 92
at 16; Doc. 100 at 19.
Though Clark did not call the City or discuss the
violation notice with De La Torre when he went to
Clark’s property, Clark did send the City some letters
in response. Doc. 100 at 22; Doc. 92 at 18-19. Clark dis­
puted that he was in violation of any sign ordinance
provision and asserted that the sign ordinance was un­
constitutional. Doc. 100 at 22; Doc. 92 at 18-19. In one
of those letters, which was labeled a litigation notice,
Clark stated that he was fearful of putting up any new
objects until the enforcement threat was removed. Doc.
79 at 5; Doc. 92 at 18-19.
The City has never affirmatively retracted the vi­
olation notice. Doc. 79 at 4; Doc. 92 at 10. But after re­
ceiving the litigation notice, the mayor spoke with the
City’s attorney, who advised the City to not continue
investigating Clark’s alleged violations of the sign or­
dinance “further.” Doc. 92 at 19; Doc. 100 at 22. The
mayor discussed the issue with the city council, and
the city council agreed to that course. Doc. 92 at 19;
Doc. 100 at 22. De La Torre’s notes state that the City
decided not to take any action on the violation notice

App. 48
“at this time.” Doc. 100 at 22; Doc. 79-2 at 23. Four
months later, the City suspended its code enforcement
officer position due to budget constraints and has had
no code enforcement officer since that time. Doc. 79 at
6; Doc. 92 at 19. Clark was aware that the City sus­
pended the position. Doc. 92 at 17. The City also did
not reappoint a judge for the City’s municipal court
and no judge has held a municipal judicial proceeding
in the City since May 2016. Doc. 92 at 19; Doc. 100 at
23. The City has indicated that it will not enforce the
sign ordinance against Clark or any one else “during
the pendency of this case.” Doc. 92 at 19.
II.

STANDARD

Both parties have filed separate motions for sum­
mary judgment. Summary judgment is appropriate if
the record establishes that there is “no genuine dispute
as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a); see
also Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247
(1986). The moving party bears the initial burden of
establishing the absence of a genuine issue of fact. Celotex Corp. v. Catrett, 477 U.S. 317,323 (1986). The bur­
den then shifts to the nonmovant to demonstrate that
genuine issues remain for trial. Matsushita Elec. In­
dus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586-87
(1986). To carry this burden, the nonmovant “may not
rely merely on . . . its own pleadings.” Nahno-Lopez
v. Houser, 625 F.3d 1279, 1283 (10th Cir. 2010) (in­
ternal quotations and citations omitted). “Rather, it
must come forward with facts supported by competent

App. 49
evidence.” Id. The inquiry turns on “whether the evi­
dence presents a sufficient disagreement to require
submission to a jury or whether it is so one-sided that
one party must prevail as a matter of law.” Liberty
Lobby, 477 U.S. at 251-52. In applying this standard,
courts must view the evidence and all reasonable in­
ferences from it in the light most favorable to the non­
movant. Matsushita, 475 U.S. at 587.
III. ANALYSIS
Clark has asserted three claims in this case. Count
I and Count II arise under the Constitution and are
brought pursuant to 42 U.S.C. § 1983. They allege, re­
spectively, violations of the First and Fourth Amend­
ments. The third count—for inverse condemnation—is
brought under Kansas state law. Doc. 55 at 14-15. Each
is discussed in turn.2
A. Clark’s First Amendment Allegations
(Count I)
A complicating factor in analyzing Clark’s First
Amendment claim is that the parties disagree on the
2 On the last page of Clark’s motion, he states, “The need for
a permanent injunction can be found in that the City’s policy (zon­
ing regulations) was the moving force (causation) of a chilling ef­
fect on Clark’s First Amendment right of free speech through
credible threat of enforcement and a credible threat of enforce­
ment remains.” Doc. 79 at 79. To the extent Clark intends that
brief statement to be a request to the Court for an injunction, it
is wholly without support and is denied. Based on the ruling in
this order, it is also largely moot.

App. 50
scope of this case. Clark asserts a broad challenge to
several provisions of the City’s sign ordinance, rather
than focusing on the February 23, 2015 violation no­
tice. Doc. 79 at 44-79. By contrast, the City disputes
that Clark has standing to challenge any provisions of
the City’s sign ordinance. Doc. 92 at 27-32. But to the
extent Clark does have standing, the City limits its
analysis to whether the City is entitled to prohibit
signs on public property.3 According to the City, the
“February 23, 2015 Notice of Violation addressed only
Article 8, § 5 of the City sign regulations.” Doc. 92 at
33.

The Court agrees with the City that Clark lacks
standing to challenge most provisions in the sign ordi­
nance, as discussed below. But the Court disagrees
with the City about what provision is at issue. The vi­
olation notice does not cite any specific provision in the
sign ordinance by number, let alone Article 8, § 5. But
it did allege that, “[u]nder the City of Williamsburg’s
Ordinance, political signs shall not be placed on or oth­
erwise affixed to any public building or sign, right of
way, sidewalks, utility pole, street lamp post, tree, or
other vegetative matter, Public Park, or other public
property.” Doc. 99-22 at 2. That recites nearly verbatim
Article 8, § 4.A.(6). Article 8, § 5 is not quoted, para­
phrased, or mentioned. Accordingly, to the extent a
3 The City frequently refers to both a prohibition of signs on
City right-of-ways and on public property in general. But it does
not appear that the City is drawing a distinction between the two,
as right-of-ways are just a subset of public property; nor does the
City’s sign ordinance make that distinction.

App. 51
specific provision is at issue, it is Article 8, § 4.A.(6)—
not Article 8, § 5.4
Clark’s reply clarifies that his standing for a
First Amendment challenge is based both on the
threatened enforcement action, “as well as the
4 Not only does the Court disagree that Clark was cited for
violating Article 8, § 5, but the Court also disagrees with the
City’s contention that the sign ordinance flatly prohibits signs on
public property. Article 8, § 5 is titled “Prohibited Signs.” Doc. 381 at 64. Subsection A of that provision reads, in part: “Signs on
Public Property: Any sign installed or placed on public property,
except in conformance with the requirements, shall be forfeited to
the public and subject to confiscation.” Id. Article 8, § S.A. does
not say that all signs are prohibited on public property. It says
that signs “placed on public property, except in conformance with
the requirements, shall be forfeited and subject to confisca­
tion. . . .” Id. (emphasis added). An obvious reading of Article 8,
§ 5 is that signs on public property are simply subject to the gen­
eral regulations of Article 8 (which includes rules about sign
types, zoning district requirements, and size, number, and set­
back restrictions), and where they are not “in conformance with
the requirements,” they are subject to confiscation. Clark points
this out. The City’s only response is that Clark misreads the sign
ordinance and that “Article 8, § 5 precludes any sign on public
right of way.” Doc. 92 at 33. Putting aside this unfortunate failure
to elaborate, the City’s interpretation is unconvincing. Nothing in
Article 8, § 5 flatly suggests that all signs on public property are
prohibited, even though other provisions of that section specifi­
cally do prohibit certain signs under other circumstances. Doc. 381 at 64-65 (stating that “[n]o person shall display upon any sign
or other advertising structure any obscene, indecent or immoral
matter” and that “Flashing signs . . . shall not be permitted”). If
the regulation was meant to prohibit signs on public property, it
likely would have just said so. But it does not. Nor does it make
sense that Article 8, § 4.A.(6) would carve out a special rule pro­
hibiting political signs on public property (under a heading of “Ex­
emptions” no less), Id. at 63-64, if Article 8, § S.A. simply banned
all signs on public property.

App. 52
ordinance’s prohibitions which stand as prior re­
straints.” Doc. 100 at 37-38. Accordingly, the Court
must evaluate Clark’s standing to challenge the en­
forcement action (involving Article 8, § 4.A.(6)), and
his broader challenge to other provisions in the sign
ordinance. Those are two different claims, and each
must be analyzed for standing separately.
1. Clark suffered an injury-in-fact through
issuance of the of the violation notice
and may challenge the constitution­
ality of Article 8, § 4.A. (6).
Under Article III of the Constitution, there must
be a case or controversy before federal courts have ju­
risdiction. Ward v. Utah, 321 F.3d 1263,1266 (10th Cir.
2003). “To meet this standing requirement, a plaintiff
must demonstrate ‘that (1) he or she has suffered an
injury in fact; (2) there is a causal connection between
the injury and the conduct complained of; and (3) it is
likely that the injury will be redressed by a favorable
decision.’” Id. (quoting Phelps v. Hamilton, 122 F.3d
1309, 1326 (10th Cir. 1997)); see also Nat’l Council for
Improved Health v. Shalala, 122 F.3d 878, 881 (10th
Cir. 1997) (citing Lujan v. Defenders of Wildlife, 504
U.S. 555, 560-61 (1992)).
To show an injury-in-fact, a plaintiff must demon­
strate “an invasion of a legally protected interest which
is (a) concrete and particularized and (b) actual or im­
minent, not conjectural or hypothetical.” Initiative &
Referendum Inst. v. Walker, 450 F.3d 1082, 1087 (10th

App. 53
Cir. 2006) (quoting Lujan, 504 U.S. at 560). “Although
‘imminence’ is concededly a somewhat elastic concept,
it cannot be stretched beyond its purpose, which is to
ensure that the alleged injury is not too speculative for
Article III purposes—that the injury is ‘certainly im­
pending.’” Lujan, 504 U.S. at 564 n.2 (internal quota­
tions omitted).5
On February 23, 2015, the City sent a “NOTICE
OF VIOLATION” to Clark, which stated that the City’s
code enforcement officer had observed “three large bar­
rels, several signs, and other affixed objects located on
the City’s right of way” in front of Clark’s house. It re­
cited nearly verbatim the language of Article 8,
§ 4.A.(6) and asked for Clark’s “cooperation in correct­
ing all the violations.” The violation notice indicated a
re-inspection would occur at a later date, and “ [i] f the
violations are not corrected a citation may be issued
and objects removed from the City easement.” Doc. 9222 at 2. Clark never removed the items, and instead
sent some letters to the City threatening legal action.
As a result, the City opted to not pursue the matter
further, or at least “at this time.” The City has never
affirmatively retracted the violation notice. Doc. 79 at
4; Doc. 92 at 10. In its summary-judgment motion, the
City has stated that it has no plans to enforce its sign
ordinance against Clark or any other citizens “during
the pendency of this case.” Doc. 92 at 19.
5 The City does not challenge the other two elements of
standing, nor do the parties even address them. The Court finds
that if Clark suffered an injury-in-fact, the other standing ele­
ments would be met.

App. 54
Under these standards, the Court concludes that
Clark has suffered an injury-in-fact concrete enough to
confer standing to challenge Article 8, § 4.A.(6). Clark
was sent a letter titled “NOTICE OF VIOLATION.”
The City is correct that the letter did ask for Clark’s
voluntary compliance. But compliance was voluntary
only to the extent that, if Clark did not comply, “a
citation may be issued and objects removed from the
City easement.” Doc. 92-22 at 2. Although the City has
stopped pursuing the matter at least for the time being
(after Clark threatened litigation), Doc. 92 at 18-19,
that decision is not permanent, nor has the City re­
scinded the violation notice. Doc. 79 at 4-5; Doc. 92 at
10; Doc. 100 at 22; Doc. 79-2 at 23 (stating that the
matter would not be pursued “at this time”).
The Court concludes that Clark has asserted suf­
ficient grounds to confer standing. He was effectively
cited for violating Article 8, § 4.A.(6), and his only op­
tion was to acquiesce or face further action. To the ex­
tent the City does not intend to ever follow up on the
violation notice or pursue the matter, it has been some­
what vague as to the duration of that resolve, leaving
Clark in limbo regarding his posting of signs—and in
particular, political signs—on his property. See Doc. 79
at 4-5; Doc. 92 at 10, 19; Doc. 100 at 22; Doc. 79-2 at
23.6 The Tenth Circuit has stated that, though an
6 Both parties include facts about the current staffing—or
lack thereof—of the City’s zoning enforcement and municipal
court staff. At some point after Clark responded to the violation
notice, the City suspended its code enforcement program and did
not reappoint its municipal court judge. Doc. 92 at 18-19. The
Court concludes these facts do not demonstrate that Clark is fully

App. 55
injury must be impending, a plaintiff “need not ‘await
the consummation of threatened injury.’ ” Essence, Inc.
v. City of Federal Heights, 285 F.3d 1272, 1282 (10th
Cir. 2002) (quoting Babbitt v. United Farm Workers
Nat’l Union, 442 U.S. 289, 298 (1979)). Here, Clark has
been threatened with enforcement under the sign or­
dinance. A “chilling effect on the exercise of a plaintiffs
First Amendment rights may amount to a judicially
cognizable injury in fact, as long as it ‘arise [s] from an
objectively justified fear of real consequences.’” Initia­
tive & Referendum Inst., 450 F.3d at 1088 (quoting
D.L.S. v. Utah, 374 F.3d 971, 975 (10th Cir. 2004)). The
“mere threat of prosecution under the allegedly un­
lawful statute” can establish that chilling effect. See
Phelps, 122 F.3d at 1326. Clark does assert a chilling
effect as to Article 8, § 4.A.(6), Doc. 79 at 3, and given
the violation notice, that chilling is at the very least
“objectively justified.” Accordingly, Clark has standing
to challenge the provision at issue in the violation no­
tice—Article 8, § 4.A.(6).
2. Clark lacks standing to challenge
other provisions.
Although Clark has standing to challenge the pro­
vision of the sign ordinance whose language was re­
cited nearly verbatim in the violation notice (Article 8,
§ 4.A.(6)), that does not mean Clark has standing to
out from under the threat of enforcement given the City’s other
statements hedging that it does not plan to pursue this matter “at
this time” or “for the duration of this case.” The lack of City staff
is similarly temporary in nature.

App. 56
challenge the entirety of the City’s sign ordinance, as
he attempts to do. As explained above, the City sent
Clark a violation notice that recited the language in
Article 8, § 4.A.(6). Doc. 92-22 at 2. The City never
sent any notice regarding other provisions. Accord­
ingly, Clark only has standing to challenge Article 8,
§ 4.A.(6). See Quinly v. City of Prairie Village, 446
F. Supp. 2d 1233, 1235 n.l (D. Kan. 2006) (concluding
that the plaintiff lacked standing to challenge other
provisions of sign ordinance where plaintiff did not
demonstrate any injury resulting from those other pro­
visions); see also Essence, 285 F.3d at 1281-82.
Perhaps recognizing this shortcoming in his case,
Clark categorizes his other challenges as “prior re­
straint” claims and suggests that he is raising an over­
breadth challenge to essentially all of the provisions in
Article 8. Doc. 79 at 52-53; Doc. 100 at 38-39.7 But being
“prospectively inhibited” is just a “hypothetical injury
and not a concrete injury.” Essence, 285 F.3d at 1281.
Similarly, merely couching the challenge of those other
provisions in terms of an overbreadth challenge does
not in of itself confer standing. Nat’l Council, 122 F.3d
at 882 (“Although the overbreadth doctrine permits a
party to challenge a statute or regulation that has not
been unconstitutionally applied to that party, it does
not dispense with the requirement that the party itself
suffer a justiciable injury.”). An overbreadth challenger
7 Clark also suggests he has standing under a “class-of-one”
theory. But that is an equal-protection claim, Jicarilla Apache
Nation v. Rio Arriba Cty., 440 F.3d 1202, 1209 (10th Cir. 2006),
and it is analyzed separately below.

App. 57
must still “show its own concrete injury resulting from
the challenged statute or regulation.” Id. at 881. Re­
quiring a plaintiff to assert his own legal rights in an
overbreadth challenge “prevents a court from ‘prema­
ture interpretations of statutes in areas where their
constitutional application might be cloudy, and it as­
sures the court that the issues before it will be concrete
and sharply presented.’” Id. at 883 n.7 (quoting Sec’y
of State v. Munson, 467 U.S. 947, 955 (1984)).
Clark also alleges an injury-in-fact as to the other
provisions based on a chilling of his First Amendment
expression. Doc. 79 at 53 (stating that “the City’s regu­
lations prohibit, through a chilling effect, the ability of
Clark to express himself freely on certain topics at cer­
tain times, in certain manners, and in certain places”).
As noted above, First Amendment standing may be
demonstrated by a showing that a statute has had a
chilling effect on a person’s speech. See Ward, 321 F.3d
at 1267. But the only chilling Clark has alleged is in
regard to prohibitions and regulations of political signs
found in Article 8, § 4.A.(6). See Doc. 79 at 3 (*][ 10 and
^ 12, both challenging Article 8, § 4.A.(6)).8 Accord­
ingly, Clark has not alleged any chilling that could
serve as an injury-in-fact to grant him standing to
challenge other provisions.
Even if he did allege a chilling as to those other
regulations, subjective chilling is not enough. Ward,
8 Statement of Fact 10 also references Article 8, § 9.B. But
the conduct Clark alleges has been “chilled” is prohibited by Arti­
cle 8, § 4.A.(6).

App. 58
321 F.3d at 1267. Rather, the “chilling effect on the
exercise of a plaintiffs First Amendment rights may
amount to a judicially cognizable injury in fact, as
long as it ‘arise[s] from an objectively justified fear of
real consequences.’” Initiative & Referendum Inst.,
450 F.3d at 1088 (quoting D.L.S., 374 F.3d at 975). Alt­
hough Clark can meet that standard as to Article 8,
§ 4.A.(6) because of the violation notice, all Clark has
to challenge the other provisions of the sign ordinance
is a conclusory claim that he has been chilled. This is
insufficient to raise a judicially cognizable injury-in­
fact. See Nat’l Council, 122 F.3d at 884 n.9 (“An allega­
tion of inhibition of speech, without more, will not sup­
port standing.”).
Accordingly, although Clark has standing to chal­
lenge Article 8, § 4.A.(6), he lacks standing to challenge
other provisions in the sign ordinance. The Court will
therefore only evaluate the constitutionality of that
provision.
3. Article 8, § 4.A.(6) is a content-based
regulation that does not pass strict
scrutiny.
As explained above, Article 8, § 4.A.(6) is the pro­
vision referenced in the violation notice. That provision
states:
Political signs, not exceeding a total of 20
square feet in area on a lot of record zoned
for non-residential purposes, or which is va­
cant and unplatted, regardless of the zoning

App. 59
district classification; and not exceeding a to­
tal of ten (10) square feet on a lot of record in
a residential zone district. Political signs shall
be displayed for no more than a four-week pe­
riod preceding and a one-week period follow­
ing an election. Political signs shall not be
placed on or otherwise affixed to any public
building or sign, right-of-way, sidewalk, utility
pole, street lamp post, tree or other vegetative
matter, or any public park or other public
property.
Doc. 38-1 at 63-64. Under this provision, “political
signs”—which is a term not specifically defined—are
treated differently than other signs. They are subject
to different size restrictions, have unique time re­
strictions, and—as discussed above in note 4—are pro­
hibited from being placed on public property, unlike
other signs. The question is whether these special rules
for political signs pass constitutional muster.
In evaluating restrictions on speech, like Article 8,
§ 4.A.(6), the first question is whether the provision
is content-neutral or content-based. Quinly, 446
F. Supp. 2d at 1238 (citing Solantic, LLC v. City of
Neptune Beach, 410 F.3d 1250,1258 (11th Cir. 2005)).
“In the context of evaluating the constitutionality of
a sign ordinance, the ordinance will be deemed con­
tent based if a violation of the ordinance may be de­
termined only by examining the content of the sign.”
Id. Content-neutral signs are subject to only inter­
mediate scrutiny, while content-based signs are sub­
ject to strict scrutiny. Id. Content-based laws “are

App. 60
presumptively unconstitutional.” Reed v. Town of Gil­
bert, 135 S. Ct. 2218, 2226 (2015).
Based on these standards, the Court finds as a
matter of law that Article 8, § 4.A.(6) is a content-based
regulation. See id. at 2227 (“Government regulation of
speech is content based if a law applies to particular
speech because of the topic discussed or the idea or
message expressed.”); see also Menotti u. City of Seattle,
409 F.3d 1113,1128-29 (9th Cir. 2005) (evaluating con­
tent neutrality as a question of law); Pahls v. Thomas,
718 F.3d 1210, 1234 (10th Cir. 2013) (citing Menotti).
On its face, Article 8, § 4.A.(6) applies only to “political
signs,” meaning that the content of a particular sign
must be evaluated to determine whether the provision
applies.9 Reed, 135 S. Ct. at 2227 (finding that a sign
code that set different restrictions for “political,” “tem­
porary directional,” and “ideological” signs “is content
based on its face”). For example, if a sign was posted
that was nine square feet in area, one would have to
read the sign to know whether it was a permissible po­
litical sign (under Article 8, § 4.A.(6)), or an oversized
and therefore impermissible garage sale sign (which
are limited to five square feet under Article 8, § 4.A.(7)).
Likewise, if a sign was still posted more than a week
after an election, it might be okay if it directs
9 The City suggests that Article 8, § 4.A.(6) says “political
signs,” but it actually means “election signs.” Doc. 92 at 6-7.
Although the provision does discuss posting political signs in re­
lation to an election, the actual text clearly says it applies to “po­
litical signs.” Even if it did only intend to apply to “election signs,”
the Court is not convinced this would make it any less contentbased.

App. 61
customers to parking in the back of a store, which
would be allowed at any time under Article 8, § 4. A.(4),
but it would be impermissible if it advocated for a cer­
tain candidate or political issue, as Article 8, § 4.A.(6)
imposes a temporal limit on political signs.10 And if a
sign was posted on a City right-of- way, it would only
be prohibited outright if it had a political message, as
the sign ordinance only bans the placement of political
signs on public property and City right-of-ways. See
supra note 4.
These distinctions are based solely on the content
of the sign at issue. Where the restrictions that apply
depend on the “communicative content” of the sign, like
here, the provision is content-based. Reed, 135 S. Ct. at
2221\ see also Outdoor Sys., Inc. v. City of Lenexa, 67
F. Supp. 2d 1231, 1240 (D. Kan. 1999) (noting that a
durational restriction on political signs is content
based and citing cases holding the same). And when a
sign ordinance is content-based, strict scrutiny applies.
Quinly, 446 F. Supp. 2d at 1238.
10 State law prohibits a city or county from regulating “the
placement of or the number of political signs on private property
or the unpaved right-of-way for city streets or county roads on
private property during the 45-day period prior to any election
and the two-day period following any such election.” K.S.A. § 252711. The City concedes that its sign ordinance would preclude it
from “prohibiting the placement or number of political signs on
the unpaved right-of-way for City streets for 45 days prior to and
two days following an election.” Doc. 92 at 6. Article 8, § 4.A.(6)
would presumably be in effect all other times. But other than for
this 48-day period in election years, that does not obviate the need
to evaluate its constitutionality for the remainder of the time it is
in effect.

App. 62
As explained above, the City does not analyze
whether Article 8, § 4.A.(6) as a content-based regula­
tion because of its position that the regulation at issue
is Article 8, § 5, which it asserts neutrally bans all
signs on public property. But as discussed above, the
Court disagrees that that provision is at issue, or that
it bans all signs on City property. See supra note 4. This
is why the Court concludes that the City’s reliance on
Members of City Council of City of Los Angeles u. Tax­
payers for Vincent is misplaced.
In Vincent, the Supreme Court upheld a ban of
temporary signs on public property. Members of City
Council of City of Los Angeles v. Taxpayers for Vin­
cent, 466 U.S. 789 (1984). But that ordinance was not
content-based—it barred all signs on public property.
Id. at 817; see also Reed, 135 S. Ct. at 2232 (describing
ban in Vincent as “content-neutral”).11 By contrast, Ar­
ticle 8, § 4.A.(6) does not neutrally ban all signs on
public property—only political signs. That prohibition
11 For similar reasons, the other cases cited by the City are
distinguishable. See Johnson v. City and Cty. ofPhiladelphia, 665
F.3d 486, 488 (3d Cir. 2011) (discussing ordinance that prohibits
the posting of signs on public right-of-ways); Davidson v. City of
Culver City, 2004 WL 5361378, at *3 (C.D. Cal. July 28, 2004)
(discussing ordinance that barred all private signs on city rightof-ways); Sokolove v. City ofRehoboth Beach, 2005 WL 1800007,
at *4 (D. Del. July 28,2005) (discussing an ordinance that permits
governmental signs on city right-of-ways but not private signs);
Constr. & Gen. Laborer’s Local Union No. 330 v. Town of Grand
Chute, 2014 WL 1689720, at *1 (E.D. Wis. Apr. 29, 2014) (discuss­
ing ordinance that forbids all signs on public right-of-ways except
traffic signs and rejecting argument that traffic-sign distinction
is content-based).

App. 63
of “public discussion of an entire topic” is why Article
8, § 4.A.(6) faces stricter scrutiny under the First
Amendment. Reed, 135 S. Ct. at 2230 (“But it is well
established that ‘[t]he First Amendment’s hostility
to content-based regulation extends not only to re­
strictions on particular viewpoints, but also to prohibi­
tion of public discussion of an entire topic.’ ” (quoting
Consolidated Edison Co. u. Public Serv. Comm’n, 447
U.S. 530, 537 (1980))).
This is not to say that the City could not, in a
content-neutral fashion, actually ban all signs on pub­
lic property, assuming it could meet the requisite in­
termediate level of scrutiny. Id. 2232 (“And on public
property, the Town may go a long way toward entirely
forbidding the posting of signs, so long as it does so in
an evenhanded, content-neutral manner “) But it can­
not, as it does here, just prohibit one type of sign based
on content—political signs—without coming under
strict scrutiny. Quinly, 446 F. Supp. 2d at 1238.
The City also argues that the different categories
of signs listed in the “Exemptions” section (which in­
cludes Article 8, § 4.A.(6)) “are reasonably limited and
do not address viewpoint or expressive content.” Doc.
92 at 33.12 This argument is not persuasive. First, it
12 The “Exemptions” section, Article 8, § 4, states that “[t]he
following signs shall be exempt from the requirements of this
article, except for the provisions of Sections 3(A) through 3(H)
above.” Doc. 38-1 at 63. Section 3 includes certain definitions
and prohibits signs that flash, signs that block accessways or
windows, signs placed on trees or utility poles, and signs that
interfere with traffic safety. Id. at 62-63. Besides political signs,
Article 8, § 4 includes exemptions for “[f]lags or emblems of a

App. 64
strains credulity that a political sign somehow does not
touch on “expressive content” protected by the First
Amendment. Second, reasonableness is not the stand­
ard. Reed, 135 S. Ct. at 2228 (“[A]n innocuous justifica­
tion cannot transform a facially content-based law into
one that is content neutral.”). Third, that Article 8,
§ 4.A.(6) operates equally without regard to any partic­
ular viewpoint does not speak to whether it is content
neutral. See Quinly, 446 F. Supp. 2d at 1238 n.5 (noting
that sign ordinance that does not distinguish based on
promotion of any particular political party or candi­
date may be “viewpoint” neutral, but the wholesale
prohibition of the topic altogether makes it contentbased). The Supreme Court has clarified that regula­
tions that are not based on any disagreement with the
message conveyed will still be subject to strict scrutiny
where the regulation is content-based on its face. Reed,
135 S. Ct. at 2228 (“A law that is content based on its
face is subject to strict scrutiny regardless of the gov­
ernment’s benign motive, content-neutral justification,
or lack of ‘animus toward the ideas contained’ in the
regulated speech.” (quoting Cincinnati v. Discovery
Network, Inc., 507 U.S. 410 429 (1993))).

government or of a political, civic, philanthropic, educational or
religious organization, displayed on private property,” govern­
mental signs, “memorial signs and tables” on public or private
property, small signs on private property for the convenience of
the public (entrance/exit, parking, restroom signs, etc.), scoreboards in athletic stadiums, and temporary garage sale signs “for
a period not to exceed five (5) days.” Id. at 63-64. The placement
of garage sale signs on public right-of-ways is neither explicitly
permitted or prohibited.

App. 65
Accordingly, strict scrutiny applies to Article 8,
§ 4.A.(6) because it is content-based. Strict scrutiny
measures whether the ordinance serves a compelling
governmental interest and is narrowly tailored to
serve that end. Reed\ 135 S. Ct. at 2231; Quinly, 446
F. Supp. 2d at 1238; see also Outdoor Sys., 67 F. Supp.
2d at 1240. “Whether something qualifies as a compel­
ling interest is a question of law.” United States v.
Hardman, 297 F.3d 1116, 1127 (10th Cir. 2002). The
burden is on the City to show a compelling interest un­
derlies Article 8, § 4.A.(6). Reed, 135 S. Ct. at 2231.
But this analysis again is complicated because the
City focuses on a provision that was not referenced in
the violation notice, and that frankly does not say what
the City says it says. See supra note 4. Here, the City
states that the “restriction on signing on City property,
including rights-of-way, serves a significant govern­
mental interest” in improving “aesthetics and traffic
safety.” Doc. 92 at 35. The City notes that such inter­
ests are generally accepted for purposes of showing a
significant governmental interest. But because Article
8, § 4.A.(6) is content-based, strict scrutiny requires a
compelling governmental interest. Quinly, 446 F. Supp.
2d at 1238. And many courts have concluded that aes­
thetics and traffic safety are not compelling reasons to
impose content-based restrictions on signs. See id. at
1243-44 (noting that traffic safety and aesthetic inter­
ests are not compelling); Outdoor Sys., Inc. v. City of
Merriam, 67 F. Supp. 2d 1258,1269 (D. Kan. 1999); see
also Solantic, 410 F.3d at 1268 (citing Metromedia, Inc.
v. City of San Diego, 453 U.S. 490, 507-08 (1981)). The

\

App. 66
lack of a compelling governmental interest means Ar­
ticle 8, § 4.A.(6) fails strict scrutiny.
Although the City states in its motion that the rea­
son for the restriction is aesthetics and traffic safety,
Article 8, § 4.A.(6) singles out political signs for a dif­
ferent reason:
The City recognizes that the expression of po­
litical speech is an important and constitu­
tionally protected right; that political signs
have certain characteristics that distinguish
them from many of the other types of signs
permitted and regulated by the City, including
the fact that these signs generally do not meet
the regular structural design of permanent
signs, given their temporary nature; that po­
litical signs therefore present a potential haz­
ard to persons and property; and that the City
must impose reasonable time limits on the
display of political signs for these reasons.
Doc. 38-1 at 64. This language suggests that the reason
for the special treatment of political signs is the “po­
tential hazard to persons and property” due to the tem­
porary nature of most political signs. Assuming this is
the interest served, the question is whether it is com­
pelling and whether Article 8, § 4.A.(6) is narrowly tai­
lored to serve that interest.
Limiting “potential hazard to persons and prop­
erty” is very broad. Given that “traffic safety” is gener­
ally not viewed as a compelling governmental interest,
see Quinly, 446 F. Supp. 2d at 1240, the City’s gener­
alized concern about limiting “potential hazard [s]” is

App. 67
likely as equally uncompelling. Although preventing or
abating specific hazards may in some instances pre­
sent a compelling governmental interest, no such jus­
tification is apparent or asserted by the City in this
case.
Even assuming limiting “potential hazard [s]” was
a compelling governmental interest, an additional
problem here is that the City has attempted to serve
that interest in a way that targets an entire topic of
discussion while leaving others untouched entirely,
and while only marginally addressing the stated gov­
ernmental interest. As the Supreme Court noted in
Reed, the ordinance’s “distinctions fail as hopelessly
underinclusive.” Reed, 135 S. Ct. at 2231.
Article 8, § 4.A.(6) singles out only one type of tem­
porary sign as potentially hazardous—those with po­
litical content. But other temporary signs, like garage
sale signs or real estate signs, are not subject to the
same size or durational limitations. See Quinly, 446
F. Supp. 2d at 1240 (“[W]hile the City’s asserted inter­
est in traffic safety is legitimate, the ordinance, as cur­
rently written, does not address that interest because
the size limitations applicable to informational signs
are not applicable to other signs which present identi­
cal concerns “) Likewise, only political signs are flatly
prohibited on public property, while other temporary
signs could presumably be placed on public property if
they meet the other requirements of Article 8.13 But it
13 As discussed above, the Court reads Article 8 as only pro­
hibiting political signs from being placed on any City property,

App. 68
is unclear why signs with political messages would be
more hazardous on public property than other tempo­
rary signs in that same area. See Reed, 135 S. Ct. at
2231-32; see also Dimmitt v. City of Clearwater, 985
F.2d 1565, 1570 (11th Cir. 1993) (finding that aesthet­
ics and traffic safety interests are not served by re­
stricting speech based on the content of the message
expressed). This “underinclusiveness” is what fails
strict scrutiny: “a law cannot be regarded as protecting
an interest of the highest order, and thus as justifying
a restriction on truthful speech, when it leaves appre­
ciable damage to that supposedly vital interest unpro­
hibited.’ ” Reed. 135 S. Ct. at 2232 (quoting Republican
Party of Minn. v. White, 536 U.S. 765, 780 (2002)).14
Accordingly, as a matter of law, the City’s contentbased provision regarding political signs does not pass
strict scrutiny and is therefore unconstitutional. See
United States v. Friday, 525 F.3d 938, 949 (10th Cir.
which is one reason Article 8, § 4.A.(6) is an impermissible con­
tent-based limitation. The Court does not reach the question of
what signs the City could or could not prohibit on its own prop­
erty, or under what terms, as long as it did so in a content-neutral
manner. See Reed, 135 S. Ct. at 2232.
14 The Court also notes that Article 8 contains a separate pro­
vision that allows the City to remove any sign that “is unsafe or
insecure, or is a menace to the public.” Doc. 38-1 at 70 (Article 8,
§ 10). That content-neutral provision would seemingly suffice to
address the City’s concerns about potentially hazardous tempo­
rary signs without needing to single out political signs for special
rules. See Quinly, 446 F. Supp. 2d at 1245 (‘To the extent the City
is concerned about deteriorating signs creating an aesthetic eye­
sore, the City could enact other provisions mandating the removal
of any sign in a state of disrepair”).

App. 69
2008) (“In First Amendment cases, application of the
least-restrictive-means (or ‘narrow tailoring’) test to a
given set of facts is well understood to be a question of
law.”). The Court bases this ruling solely on the fact
that the City’s sign ordinance singles out political
signs for different rules in a manner that does not nar­
rowly tailor the restriction to serve a compelling gov­
ernmental interest. The Court does not decide whether
the restrictions applied to political signs would be con­
stitutional if applied to all signs in a content-neutral
manner, see, e.g., Reed, 135 S. Ct. at 2232, as it need not
make that decision to resolve the current dispute be­
tween the parties.
4. Article 8, § 4.A. (6) can be severed
from the remainder of the City’s
sign ordinance.
Having determined that Article 8, § 4.A.(6) is un­
constitutional, the next question is whether it can be
severed from the rest of the City’s sign ordinance. Sev­
erability is determined using state law. In Kansas, the
question is whether “the act would have been passed
without the objectional portion and if the statute
would operate effectively to carry out the intention of
the legislature with such portion stricken. . ..” Out­
door Sys., 67 F. Supp. 2d at 1241 (quoting Thompson v.
K.F.B. Ins. Co., 850 P.2d 773, 782 (Kan. 1993)). Severa­
bility will be assumed “if the unconstitutional part can
be severed without doing violence to legislative intent.”
Quinly, 446 F. Supp. 2d at 1246 (quoting Thompson,
850 P.2d at 782). Where a portion of a statute is

App. 70
severable, the Court “should and need not decide
whether the rest of the statute is unconstitutional.”
Williams Natural Gas Co. v. Supra Energy, Inc., 931
P.2d 7,13 (Kan. 1997). “[W]here unconstitutional parts
of a statute can be readily separated from the remain­
der of the statute without affecting the meaning of
what remains, the unconstitutional language will be
stricken and the constitutional portion will stand.”
Id. (quoting State v. Rupert, 802 P.2d 511, 514 (Kan.
1990)).
The City argues that “if any of the exemptions
were considered to be content-based, such an exemp­
tion should be severed from the regulations to uphold
the remainder,” noting that the City’s zoning ordi­
nance (of which the sign ordinance is a part) contains
a severability clause in Article 3, § 2. Doc. 92 at 34.
Although the Kansas Supreme Court has stated that
the existence of a severability clause is not significant,
Thompson, 850 P.2d at 782, the Court concludes that
other concerns weigh in favor of severing Article 8,
§ 4.A.(6). Specifically, Article 8, § 4.A.(6) is a selfcontained exemption to the sign ordinance. It can
be easily separated without affecting the meaning of
the other provisions. Quinly, 446 F. Supp. 2d at 1247
(“[E]ven without these four provisions, the ordinance
remains a comprehensive and coherent system of
sign regulation.”); Outdoor Sys., 67 F. Supp. 2d. at
1242 (“The restriction on political campaign signs is
not intertwined with the remaining provisions of the
”)
ordinance

App. 71
Although Article 8, § 4.A.(6) is listed as an “Ex­
emption” to the sign ordinance, it actually sets more
restrictive rules for political signs. Removing it would
simply put political signs back on par with other signs.
See Quinly, 446 F. Supp. 2d at 1247. (“[T]here is no ba­
sis to believe that the City council would have pre­
ferred having no sign ordinance at all to one that
contains all the current provisions other than the four
isolated provisions discussed above.”). Based on that,
the Court cannot conclude that the City would not
have passed the sign ordinance but for the inclusion of
Article 8, § 4.A. (6).
Accordingly, Article 8, § 4.A.(6) is severed from the
City’s sign ordinance.
5. Clark’s “class of one” claim fails.
Clark purports to bring a “class of one” Equal Pro­
tection claim.15 Doc. 79 at 65-66. Although Clark raises
this claim in his motion, he does little to explain it,
other than suggesting that his property “appears to be
the first and only property against which the City has
ever enforced it’s [sic] sign regulations which were en­
acted around 2003 even though numerous residences
have had signs in the right of way of their road front­
age.” Doc. 79 at 65 (citing to statement of facts <I<][ 1417). But the facts he states to support that contention
15 As noted above, the parties analyze Clark’s class-of-one
claim under his First Amendment claim, though it is generally
described in terms of Equal Protection. See Jicarilla Apache Na­
tion, 440 F.3d at 1209.

App. 72
fail to support it or are controverted. See Doc. 79 at 4;
Doc. 92 at 9-10. Only one of the cited facts even alleges
that Clark was singled out for disparate treatment,
and the City controverts that there were other resi­
dents with signs comparable to Clark’s. Doc. 79 at 4;
Doc. 92 at 9-10.
The Tenth Circuit has taken a cautious approach
in “class of one” cases, wary of “turning even quotidian
exercises of government discretion into constitutional
causes.” Jicarilla Apache Nation, 440 F.3d at 1209. In
Jicarilla Apache Nation, the Tenth Circuit explained
that the “paradigmatic class of one case” involves “a
public official inflict [ing] a cost or burden on one person
without imposing it on those who are similarly situ­
ated in material respects, and does so without any con­
ceivable basis other than a wholly illegitimate motive.”
Id. Although it is not settled that a plaintiff must
demonstrate a “subjective ill will” on the part of the
government official, id. at 1209-10, the existence of an
objectively reasonable basis for the disputed action
will generally defeat a claim that the decision of the
government official was “irrational and wholly arbi­
trary.” Id. at 1210-11. “This standard is objective—if
there is a reasonable justification for the challenged
action, we do not inquire into the government actor’s
actual motivations.” Kansas Penn Gaming, LLC v. Col­
lins, 656 F.3d 1210,1216 (10th Cir. 2011).
Clark’s claim fails on this point. There is no dis­
pute that there was an objectively reasonable justifica­
tion for the action—Clark had signs on his property
that were at least presumably not in conformance with

App. 73
the City’s sign ordinance. Even though Clark disputes
whether the City has a valid right-of-way at the edge
of his property, he has set forth no facts showing that
De La Torre acted irrationally or in a wholly arbitrary
manner.
Further, to prevail on this theory, Clark must point
to others who are similarly situated in “every material
aspect.” Jicarilla Apache Nation, 440 F.3d at 1210;
Kansas Penn Gaming, 656 F.3d at 1216 (“To prevail on
this theory, a plaintiff must first establish that others,
‘similarly situated in every material respect’ were
treated differently.”). This is an “exacting burden! ]” be­
cause “it is exceedingly difficult to demonstrate that
any difference in treatment is not attributable to a
quirk of the plaintiff or even to the fallibility of admin­
istrators whose inconsistency is as random as it is in­
evitable” Jicarilla Apache Nation, 440 F.3d at 1213.
Here, Clark has not met that burden. All Clark has
stated is his case “appears” to be the first case of en­
forcement “even though numerous residences have
had signs in the right of way of their road frontage.”
Doc. 79 at 65. But the only evidence cited for that as­
sertion is Clark’s own affidavit stating he has observed
residences with political signs and mailboxes in the
right-of-way, as well as an auto repair sign in the rightof-way “in place for about a year or maybe longer a few
years ago but I cannot recall the exact timeframe.” Doc.
79-2 at 3. This falls far short of showing similarity “in
every material respect.” Indeed, in response to the
City’s assertion that the signs on Clark’s property were
unique in quantity and placement, Doc. 92 at 17, Clark

App. 74
responded by stating that no facts cited or offered by
the City can prove that. Doc. 100 at 21. But notably, it
is Clark’s burden to prove others were similarly situ­
ated in every material respect, not the City’s burden to
disprove. See Jicarilla, 440 F.3d at 1212. Accordingly,
even if Clark could meet the first prong of the class-ofone test and show irrational and arbitrary action on
the part of a City official, Clark has not met his burden
under the summary-judgment standard to point to suf­
ficient evidence that a jury could rely on to find that
he was treated differently than others who are simi­
larly situated in every material respect. See Matsu­
shita Elec. Indus., 475 U.S. at 586-87; see also Liberty
Lobby, 477 U.S. at 251-52. Accordingly, the City is en­
titled to summary judgment on Clark’s class-of-one
theory.
B. Clark’s Fourth Amendment Allegations
(Count II)
In his Fourth Amendment claim, Clark alleges
that De La Torre performed an unlawful search of his
property on March 16, 2015. Clark attributes this to
the City’s zoning ordinance or else the City’s failure to
train its code enforcement officers, either of which he
contends make the City liable for De La Torre’s actions.
Clark also challenges portions of the City’s zoning or­
dinance, which he says permitted the search, as fa­
cially unconstitutional under the Fourth Amendment.
Doc. 84 at 14-15.

App. 75
1. Clark has not established that an
unlawful search occurred.
Although Clark asserts that the search of his
property was the result of either the City’s zoning
regulations or a failure to train, that question is only
important if there was a Fourth Amendment violation
to begin with. This is because the City can only be lia­
ble for De La Torre’s actions if De La Torre’s actions
were unconstitutional. See Wilson v. Meeks, 98 F.3d
1247, 1255 (10th Cir. 1996) (“A municipality may not
be held liable where there was no underlying constitu­
tional violation by any of its officers.” (quoting Hinton
v. City ofElwood, 997 F.2d 774, 782 (10th Cir. 1993))).
Clark argues that De La Torre entered his prop­
erty seeking information about whether Clark would
remove the signs at issue and did so in a manner that
“exceeded the implied license of Florida u. Jardines.”
Doc. 79 at 34-35. Specifically, Clark takes issue with
the fact that De La Torre did not knock on his front
door but instead walked down the driveway after hear­
ing noises toward the back. This, Clark contends, was
an unlawful search of the curtilage of his house. Doc.
79 at 38. Defendants counter that De La Torre never
entered the curtilage of Clark’s property, and even if he
did, he did so in taking the most common path availa­
ble to visitors in an attempt to contact Clark. Doc. 92
at 41-45.
A “search” happens under the Fourth Amendment
when a person’s reasonable expectation of privacy “is
infringed.” Soldal v. Cook Cty., III., 506 U.S. 56, 63

f

App. 76
(1992). Courts acknowledge that an individual has a
reasonable expectation of privacy in the curtilage of his
home. Lundstrom v. Romero, 616 F.3d 1108,1128 (10th
Cir. 2010). The curtilage of the home—the area “imme­
diately surrounding and associated with the home”—
is “as ‘part of the home itself for Fourth Amendment
purposes. Florida v. Jardines, 569 U.S. 1, 6 (2013)
(quoting Oliver v. United States, 466 U.S. 170, 180
(1984)).
Even given these protected areas, the Supreme
Court has explained that an implicit license exists that
allows visitors to “approach the home by the front path,
knock promptly, wait briefly to be received, and then
(absent invitation to linger longer) leave.” Jardines,
569 U.S. at 8. The same license is extended to law en­
forcement officers, who may approach a home to talk
to the owner without a warrant and without disrupt­
ing any Fourth Amendment protections. Id.; see also
United States v. Shuck, 713 F.3d 563, 567 (2013) (“[A]
‘knock and talk’ is a consensual encounter and there­
fore does not contravene the Fourth Amendment, even
absent reasonable suspicion.” (quoting United States v.
Cruz-Mendez, 467 F.3d 1260,1264 (10th Cir. 2006))).
Clark argues that Jardines drew an explicit line
about what is allowed for a knock-and-talk, namely,
that the officer may only “approach the home by the
font path, knock promptly, wait briefly to be received,
and then (absent an invitation to linger longer) leave.”
Doc. 79 at 38 (quoting Jardines, 569 U.S. at 8). But
Clark misconstrues the holding of Jardines. It did not
hold that was the only permissible way to approach a
!

App. 77
house. In Jardines, the issue was whether the typical
license to approach a house extended to bringing a
drug-sniffing dog onto the front porch to do an investi­
gation. Jardines, 569 U.S. at 9. The Supreme Court con­
cluded it did not extend that far because, while it may
be routine to have someone knock on the front door,
“that same visitor exploring the front path with a
metal detector, or marching his bloodhound into the
garden before saying hello and asking permission,
would inspire most of us to—well, call the police.” Id.
The scope of any license, therefore, is limited in both
area and purpose. Id.
But other courts have held that the license to ap­
proach a house extends to the normal path taken by
visitors. In United States v. Shuck, the defendant ar­
gued that a knock-and-talk at his trailer home was un­
constitutional because officers conducted it at the back
door of the home without knocking on the front door
first. Shuck, 713 F.3d at 567.16 The Tenth Circuit re­
jected that argument, even assuming the officers went
into the home’s curtilage, because the “‘portion of the
curtilage’ that is ‘the normal route of access for anyone
16 Clark argues that Jardines changed the law and left the
cases cited by the City—many of which are also cited here—no
longer good law. But the Court notes that Shuck was issued after
Jardines, and even cites to it. Shuck, 713 F.3d at 567. Further,
Jardines did not address the propriety of approaching a back door
versus a front door. In Jardines, the problem was that officers
came onto a front porch with a drug-sniffing dog. It was the pres­
ence of the dog that made the encounter problematic. Jardines,
569 U.S. at 9; see also United States v. Carloss, 818 F.3d 988, 993
(10th Cir. 2016) (“Jardines left our preexisting knock-and-talk
precedent undisturbed.”).

App. 78
visiting the premises’ is only a ‘semiprivate area’ on
which police may set foot if they ‘restrict their move­
ments to places visitors could be expected to go (e.g.,
walkways, driveways, porches).’ ” Id. (quoting 1 Wayne
R. LaFave et al., Search & Seizure § 2.3(f) (5th ed.,
2012 update)). When officers in Shuck first approached
the house, there was a fence enclosing the front yard
and part of the driveway. The gate was locked and ap­
peared that it had not been used in some time. The of­
ficers then went around the fence to the back door
because it “appeared persons entering the trailer en­
tered through the back door.” Id. at 565. Because “the
evidence showed that by approaching the back door as
they did, the officers used the normal route of access
. . . [they] did not violate the Fourth Amendment when
they approached the trailer’s back door with an intent
to speak to its occupants regarding the reported odor
of marijuana.” Id. at 568 (also noting in a footnote that
this holding “is consistent with findings of other cir­
cuits”); see also United States v. Thomas, 430 F.3d 274,
276-80 (6th Cir. 2005) (rejecting argument that officers
violated the Fourth Amendment when they knocked on
the back door, “which served as the primary entrance
to the home”); United States v. Garcia, 997 F.2d 1273,
1279-80 (9th Cir. 1993) (“If the front and back of a
residence are readily accessible from a public place,
like the driveway and parking area here, the Fourth
Amendment is not implicated when officers go to the
back door reasonably believing it is used as a principal
entrance to the dwelling.”); United States v. Daoust,
916 F.2d 757, 758 (1st Cir. 1990) (“[A policeman] obvi­
ously can go up to the door .. . and, it seems to us, if

App. 79
that door is inaccessible there is nothing unlawful or
unreasonable about going to the back of the house to
look for another door, all as part of a legitimate attempt
to interview a person.”).
The facts in Shuck are similar to the facts in this
case. Here, it is undisputed that there was no path to
the front porch from the driveway, the steps were par­
tially blocked with vegetation, and items on the porch
at least partially blocked the front door. Clark admits
that he had “trained” at least some of his visitors to
come to the back entrance, and that he hoped the state
of the front entrance would deter visitors. These undis­
puted facts, coupled with De La Torre hearing someone
towards the back of the house, made his decision to
walk that way in an attempt to contact Clark entirely
reasonable; no reasonable jury could find otherwise.
See United States v. Raines, 243 F.3d 419,421 (8th Cir.
2001) (stating that “law enforcement officers must
sometimes move away from the front door when at­
tempting to contact the occupants of a residence”);
United States v. Anderson, 552 F.2d 1296,1300 (8th Cir.
1977) (finding that agents’ actions in going toward the
back of the house after getting no answer at the front
to see if a person was in the back with a barking dog
was not “incompatible with the scope of their original
purpose . .. ”); United States u. Diaz, 2009 WL 3675006,
at *2 (N.D. Fla. Oct. 30,2009) (“If it appears that some­
one is in or around a house, officers may take reasona­
ble steps to initiate contact by going to other areas of
the property.”). The fact that the front door was par­
tially visible, as Clark contends, see Doc. 100 at 55, does

App. 80
not change the fact that De La Torre reasonably as­
sumed that the front door was not the primary en­
trance.17 The fact that De La Torre did not first knock
on Clark’s front door does not make his approach inap­
propriate. See Alvarez v. Montgomery Cty., 147 F.3d
354, 358 (4th Cir. 1998) (“Other circuits likewise have
found that the Fourth Amendment does not invariably
forbid an officer’s warrantless entry into the area sur­
rounding a residential dwelling even when the officer
has not first knocked at the front door.”). Nor is the
Court convinced that De La Torre exceeded the scope
of the license. When Clark asked him to leave, he did
so. It is undisputed that De La Torre was at the prop­
erty no more than a few minutes and left within a mi­
nute of being asked to leave. Doc. 92 at 16-17; Doc. 100
at 19; see Carloss, 818 F.3d at 998 (finding license not
exceeded when officers knocked for several minutes);
Ysasi v. Brown, 3 F. Supp. 3d 1088,1158 (D.N.M. 2014)
(“[OJnce a person revokes the consent that permitted
officers to enter the home or conduct a search, the of­
ficers should promptly leave, unless the officers have
independent legal authority to remain.”).
Accordingly, the Court does not need to determine
whether De La Torre entered the curtilage of Clark’s
17 In his reply, Clark argues that police officers who came to
his property in 2018 knocked on the front door, presumably in an
attempt to show that the front door is the commonly used en­
trance for visitors. Doc. 100 at 56. But these unsupported factual
allegations that occurred more than three years after the events
of this case have no bearing on the issues currently before this
Court and do no establish a factual dispute sufficient to defeat
summary judgment. See Fed. R. Civ. P. 56.

App. 81
home, because even if he did, his actions in trying to
find Clark on the property were taken in accordance
with the implied license to approach the house. No rea­
sonable jury could conclude there was a search of
Clark’s property under these facts. And if there was no
search, there was certainly no unconstitutional search.
Given that, the Court does not need to reach the ques­
tion of whether De La Torre’s actions were attributable
to the City’s zoning regulations or the City’s failure to
train its code enforcement officers. Doc. 79 at 36-37;
Doc. 92 at 48-50 This is because “[a] municipality may
not be held liable where there was no underlying con­
stitutional violation by any of its officers.” Hinton, 997
F.2d at 782.
Accordingly, the City is entitled to summary judg­
ment on Clark’s Fourth Amendment claim.
2. Clark lacks standing to challenge
other provisions regarding under
the Fourth Amendment.
Clark’s summary-judgment motion also argues
that the City’s zoning ordinance is void for vagueness
because it unconstitutionally allows code enforcement
officers to abate (or seize) nonconforming signs without
a warrant. Doc. 79 at 40-43 (citing Mathews u. Eldridge, 425 U.S. 319 (1976)). The City does not directly
address this claim but does seem to suggest that there
is an extensive administrative process that must play
out before any signs are ever seized. Doc. 92 at 46-48.

App. 82
Neither party’s argument on this point is exceed­
ingly clear, but to the extent Clark is facially challeng­
ing the section of the zoning ordinance that permits
code enforcement officers to enter property and seize
non-conforming signs, the Court finds that he lacks
standing. There are no factual allegations that any
signs or any other items were ever seized from Clark’s
property, nor any facts that such a seizure was immi­
nent. There was never even a search of or unlawful en­
try onto Clark’s property.
As discussed above, standing requires that a
plaintiff show an injury-in-fact. Ward, 321 F.3d at
1266. That injury must be concrete and particularized,
as well as actual or imminent. Initiative & Referendum
Inst., 450 F.3d at 1087. Here, like with other provisions
of the sign ordinance he attempts to challenge, Clark
was never subject to any search or seizure. No one en­
tered his property unlawfully or seized any of his prop­
erty. This distinguishes him from the defendant in
Camara v. Municipal Court of City and Cty. of San
Francisco, which Clark relies on. There, Camara was
actually arrested and charged with refusing to allow a
warrantless search of his home. Camara v. Municipal
Court of City and Cnty. of San Francisco, 387 U.S.
523, 525-27 (1967). As the Court has already found,
although the violation notice created a sufficient injury-in-fact to permit Clark to challenge Article 8,
§ 4.A.(6), it did not create an injury sufficient for Clark
to challenge the other provisions of the City’s zoning
ordinance.

App. 83
C. Clark’s Inverse-Condemnation Claim
(Count III)
Clark also asserts an inverse-condemnation claim
under Kansas state law. This stems from the dispute
between the parties about whether or to what extent
there is an easement or City right-of-way on the por­
tion of Clark’s property that abuts the highway. Clark
contends that the City, in sending the violation notice,
effected a “regulatory taking” because the violation no­
tice “substantially burdens Clark’s First Amendment
rights.” Doc. 84 at 15; see also Doc. 79 at 29-30 (stating
that violation notice restricted placement of signs in
violation of his First Amendment right and “con­
vert [ed] private property that is free and clear of bur­
den to being property that is burdened by right-of-way
restrictions (an effective easement).”).
An inverse-condemnation claim is essentially the
reverse of an eminent-domain claim. In an eminentdomain action, the governmental authority institutes
the action to take property. Estate ofKirkpatrick v. City
of Olathe, 215 P.3d 561, 565 (Kan. 2009).18 By contrast,
18 Although related, an inverse-condemnation claim is dis­
tinct from a “just compensation” or takings claim under the Fifth
Amendment. The Fifth Amendment does not prohibit takings—
only takings without just compensation. Olson v. AT & T Corp.,
431 F. App’x 689, 691-92 (10th Cir. 2011). A property owner can­
not bring a Fifth Amendment claim until an inverse-condemna­
tion claim has been adjudicated and just compensation denied.
Id.; see also Williamson Cty. Reg’l Planning Comm’n v. Hamilton
Bank of Johnson City, 473 U.S. 172, 194-97 (1985). Here, Clark’s
claim is for inverse condemnation under Kansas law, not under
the Fifth Amendment. Doc. 55 at 14.

App. 84
inverse-condemnation proceedings are bought by the
party who owns property to allege that the property
was taken for public use without the initiation of con­
demnation proceedings by the government. Id. “To suc­
ceed on a claim for inverse condemnation, a party must
establish that he or she has an interest in real property
affected by a public improvement project and that a
taking has occurred. The question of whether there has
been a compensable taking is one of law.” Id.
The parties dedicate considerable portions of their
briefs debating who owns the strip of land that is be­
tween 30-40 feet from the centerline of the highway
that runs adjacent to Clark’s property, as well as the
nature of that ownership interest (an easement or fee
simple). Doc. 79 at 15-29; Doc. 92 at 21-26. But the
parties spend very little time on the more obvious
question here, namely, whether any “taking” even oc­
curred. That is essential to this claim.
Regulatory takings in Kansas can take three
forms: physical, title, or economic. Garrett v. City of
Topeka, 916 P.2d 21, 30-31 (Kan. 1996). A physical reg­
ulatory taking occurs when a regulation literally pro­
duces a physical intrusion, such as authorizing “low
and frequent overflights for military airplanes.” Id. A
title regulatory taking occurs where a regulation “sig­
nificantly interferes with the incidents of ownership.”
Id. (emphasis added). An economic regulatory taking
“is a taking only if the economic impact on the landowner outweighs the public purpose of the regulation.”
Id.

r

App. 85
The only taking Clark alleges is that the sign or­
dinance interferes with what he wants to do with his
own property. But to the extent that is true, it is no
more than can be said for every law or zoning ordi­
nance, and it does not represent a significant interfer­
ence with his ownership. Nor does the violation notice
somehow create a cloud on Clark’s title, as he suggests.
Doc. 79 at 29-30. Under these facts, the Court finds
that here has been no compensable taking as a matter
of law. See Estate of Kirkpatrick, 215 P.3d at 565 (“The
question of whether there has been a compensable tak­
ing is one of law.”). Accordingly, the City is entitled to
summary judgment on this claim.
IV. CONCLUSION
THE COURT THEREFORE ORDERS that Plain­
tiff’s Motion for Partial Summary Judgment (Doc. 78)
is GRANTED IN PART AND DENIED IN PART.
THE COURT FURTHER ORDERS that Defend­
ant’s Motion for Summary Judgment (Doc. 91) is
GRANTED IN PART AND DENIED IN PART.
THE COURT FURTHER ORDERS that Clark is
granted summary judgment on his claim in Count I of
his First Amended Complaint that Article 8, § 4.A.(6)
is an unconstitutional content-based restriction under
the First Amendment.
THE COURT FURTHER ORDERS that the City
is granted summary judgment on Clark’s Fourth

App. 86
Amendment claim (Count II) and Inverse Condemna­
tion claim (Count III).
THE COURT FURTHER ORDERS that Clark’s
other challenges to the City’s sign and zoning ordi­
nances are dismissed without prejudice for lack of
standing.
IT IS SO ORDERED
DATED: May 9, 2019

/s/ Holly L. Teeter
HOLLY L. TEETER
UNITED STATES
DISTRICT JUDGE

App. 87
United States District Court
DISTRICT OF KANSAS
ERIC S. CLARK,
Plaintiff,
Case No: 2:17-cv-02002-HLT

v.
CITY OF WILLIAMSBURG,
KANSAS,
Defendant,

JUDGMENT IN A CIVIL CASE
(Filed Jul. 18, 2019)
M

Jury Verdict. This action came before the Court for
a jury trial. The issues have been tried and the
jury has rendered its verdict.

□

Decision by the Court. This action came before the
Court. The issues have been considered and a de­
cision has been rendered.

Pursuant to the Memorandum and Order (Doc.
114) and Verdict returned by a jury on July 18, 2019,
judgment is awarded to the Plaintiff Eric S. Clark
against Defendant City of Williamsburg, Kansas as to
Count 1 in the amount of $1.00.
Pursuant to the Memorandum and Order (Doc.
114), judgment is awarded to the Defendant City of
Williamsburg, Kansas against Plaintiff Eric S. Clark
as to Count 2 and 3.

App. 88
IT IS SO ORDERED.
TIMOTHY O’BRIEN
CLERK OF THE COURT
Dated: July 18, 2019

/s/ Misty D. Deaton______
By Deputy Clerk
/s/ Holly L. Teeter
HOLLY L. TEETER
UNITED STATES
DISTRICT JUDGE

App. 89
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
)
ERIC S. CLARK,
)
Plaintiff,
v.
) Case No.
) 2:17-cv-02002-HLT
THE CITY OF
WILLIAMSBURG, KANSAS, )
Defendant.
)

NOTICE OF APPEAL
(Filed Oct. 16, 2019)
Plaintiff appeals, to the Court of Appeals for the
Tenth Circuit,
the (summary judgment) Order [ECF 114] dated
May 9, 2019 and;
the (denial of reconsideration) Order [ECF 135]
dated June 19, 2019
(ORDERING ‘that Clark’s motions for reconsideration
(Docs. 117,119, and 121) are DENIED’) and;
the final Judgment [ECF 156] dated July 18, 2019
and;
the (denial of motion to amend) Order [ECF 164]
dated September 25, 2019

App. 90
(ORDERING ‘that Clark’s motion to amend judgment
and for new trial (Doc. 157) is DENIED.’)
Respectfully submitted,
/s/ Eric S. Clark
Eric S. Clark, 1430 Dane Ave, Williamsburg, Kansas
[66095] 785-214-8904

App. 91
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
ERIC S. CLARK,
Plaintiff - Appellant,
No. 19-3237
(D.C. No. 2:17-CV-02002-HLT)
CITY OF WILLIAMSBURG,
(D. Kan.)
KANSAS,

v.

Defendant - Appellee.

ORDER
(Filed Feb. 11, 2021)
Before TYMKOVICH, Chief Judge, BRISCOE, and
BACHARACH, Circuit Judges.

Appellant’s petition for rehearing is denied. Judge
Bacharach voted to grant rehearing.
The petition for rehearing en banc was trans­
mitted to all of the judges of the court who are in
regular active service. As no member of the panel
and no judge in regular active service on the court

App. 92
requested that the court be polled, that petition is
also denied.
Entered for the Court
/s/ Christopher M. Wolpert_____
CHRISTOPHER M. WOLPERT,
Clerk

